<html>
<title> - UNDERSEA RESEARCH AND OCEAN EXPLORATION: H.R. 3835, THE NATIONAL OCEAN EXPLORATION PROGRAM ACT OF 2005 AND THE UNDERSEA RESEARCH PROGRAM ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                UNDERSEA RESEARCH AND OCEAN EXPLORATION:
               H.R. 3835, THE NATIONAL OCEAN EXPLORATION
                  PROGRAM ACT OF 2005 AND THE UNDERSEA
                      RESEARCH PROGRAM ACT OF 2005

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2006

                               __________

                           Serial No. 109-58

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-758                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
JUDY BIGGERT, Illinois               BRAD MILLER, North Carolina
WAYNE T. GILCHREST, Maryland         MARK UDALL, Colorado
TIMOTHY V. JOHNSON, Illinois         LINCOLN DAVIS, Tennessee
DAVE G. REICHERT, Washington         BRIAN BAIRD, Washington
JOHN J.H. ``JOE'' SCHWARZ, Michigan  JIM MATHESON, Utah
MARIO DIAZ-BALART, Florida               
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
                AMY CARROLL Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
                 CHAD ENGLISH Professional Staff Member
                 DEVIN BRYANT Majority Staff Assistant


                            C O N T E N T S

                             July 27, 2006

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative David Wu, Ranking Minority Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    12
    Written Statement............................................    13

                               Witnesses:

Dr. Richard W. Spinrad, Assistant Administrator, Office of 
  Oceanic and Atmospheric Research, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    22

Mr. Andrew N. Shepard, Director, Southeastern U.S. and Gulf of 
  Mexico, National Undersea Research Center, University of North 
  Carolina-Wilmington
    Oral Statement...............................................    23
    Written Statement............................................    24
    Biography....................................................    28

Dr. Marcia K. McNutt, President and Chief Executive Officer, 
  Monterey Bay Aquarium Research Institute
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    34

Hon. Jim Saxton, a Representative in Congress from the State of 
  New Jersey
    Oral Statement...............................................    42
    Written Statement............................................    44

Discussion
  Support for H.R. 3835..........................................    47
  Support for Interagency Coordination...........................    48
  Merger of NURP and OE..........................................    49
  Priorities for Ocean Exploration and Research..................    50
  Duplication, Cooperation, and the Great Lakes..................    52
  Proposed Appropriations in H.R. 3835...........................    53

             Appendix 1: Answers to Post-Hearing Questions

Dr. Richard W. Spinrad, Assistant Administrator, Office of 
  Oceanic and Atmospheric Research, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce........    56

             Appendix 2: Additional Material for the Record

Letter to Vice Admiral Conrad C. Lautenbacher from J. Val Klump, 
  Director and Senior Scientist, Great Lakes WATER (Wisconsin 
  Aquatic Technology & Environmental Research) Institute, 
  University of Wisconsin, Milwaukee, dated November 29, 2005....    60

Statement of Representative Rob Simmons, Co-Chairman, 
  Congressional Long Island Sound Caucus; Co-sponsor, H.R. 3835, 
  the National Ocean Exploration Program Act of 2005 and the 
  Undersea Research Program Act of 2005..........................    63

Statement of Mr. Robert I. Wicklund, Director, Federal Programs, 
  and Dr. Daniel G. Baden, Director, Center for Marine Science, 
  University of North Carolina, Wilmington.......................    64


UNDERSEA RESEARCH AND OCEAN EXPLORATION: H.R. 3835, THE NATIONAL OCEAN 
 EXPLORATION PROGRAM ACT OF 2005 AND THE UNDERSEA RESEARCH PROGRAM ACT 
                                OF 2005

                              ----------                              


                        THURSDAY, JULY 27, 2006

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Subcommittee] presiding.
                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                Undersea Research and Ocean Exploration:

               H.R. 3835, the National Ocean Exploration

                  Program Act of 2005 and the Undersea

                      Research Program Act of 2005

                        thursday, july 27, 2006
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On July 27, 2006 at 2:00 p.m., the Subcommittee on Environment, 
Technology, and Standards of the House Committee on Science will hold a 
hearing to examine the National Oceanic and Atmospheric 
Administration's (NOAA) National Undersea Research Program (NURP) and 
Ocean Exploration (OE) Program and to receive comments on H.R. 3835, 
the National Ocean Exploration Program Act of 2005 and the Undersea 
Research Program Act. On July 1, 2005 the Senate passed S. 39, a bill 
largely identical to H.R. 3835 that would also authorize these 
programs. The Committee will examine the current programs, including 
their relationship to one another, in the context of pending 
legislation.
    The Committee plans to explore these overarching questions:

        1.  What are the goals and missions of the Undersea Research 
        and Ocean Exploration programs? How do these goals and missions 
        relate to and complement other U.S. marine research programs?

        2.  Would a merger or consolidation of the NURP and OE programs 
        still support the programs' activities and maintain the 
        programs' role in national marine research?

        3.  Does H.R. 3835 provide sufficient guidance for the scope 
        and direction of these programs and, if appropriate, for a 
        merger?

    Witnesses:
Panel 1

The Honorable Jim Saxton

The Honorable Robert Simmons

Panel 2

Dr. Richard Spinrad, Assistant Administrator of the National Oceanic 
and Atmospheric Administration (NOAA) Office of Oceanic and Atmospheric 
Research (OAR).

Mr. Andrew Shepard, Director, National Undersea Research Center, 
University of North Carolina-Wilmington.

Dr. Marcia McNutt, President and CEO, Monterey Bay Aquarium Research 
Institute.

Background on H.R. 3835:

    H.R. 3835 was introduced by Mr. Saxton on September 20, 2005. The 
bill would authorize, for the first time in legislation, two existing 
programs within NOAA, the National Ocean Exploration Program (OE), 
which is the subject of Title I of the bill, and the NOAA Undersea 
Research Program (NURP), which is the subject of Title II (see Appendix 
II for a section-by-section summary of the bill).
    The House Resources Subcommittee on Fisheries and Oceans held a 
hearing on H.R. 3835 on May 4, 2006. On July 1, 2006, the Senate 
companion to H.R. 3835, S.39 (sponsored by Senator Stevens), passed the 
Senate by unanimous consent, and was referred to the Committee on 
Science, and in addition to the Committee on Resources.

Background on NURP and OE:

    NURP, which had its origins in the 1970s, funds applied research in 
areas such as ecology and fisheries management that can be of use to 
policy-makers, and generally focuses on areas that are relatively close 
to shore. NURP also funds the development of technology for undersea 
research, and education and outreach programs (such as the Aquarius 
underwater habitat, and JASON, which lets schools participate in 
undersea research).
    NURP, housed in NOAA's Office of Oceanic and Atmospheric Research 
(OAR), operates through six regional centers at University of 
Connecticut (covering the North Atlantic and Great Lakes); Rutgers 
University (covering the Mid-Atlantic); University of North Carolina at 
Wilmington (covering the Southeastern United States and Gulf of 
Mexico); Perry Institute of Marine Science (covering the Caribbean) 
\1\; University of Hawaii (covering Hawaii and the Western Pacific); 
and University of Alaska at Fairbanks (covering the West Coast and 
Polar Regions). In addition to those six centers, the National 
Institute for Undersea Science and Technology (NIUST), established in 
2002 by Congress, is based at the University of Mississippi and the 
University of Southern Mississippi. Each center manages its own 
operations and grant program, but research priorities and strategic 
direction are coordinated through the National Program Office at NOAA 
Headquarters.
---------------------------------------------------------------------------
    \1\ The Caribbean center will merge with the Gulf of Mexico and 
Southeast Atlantic center later this year.
---------------------------------------------------------------------------
    The six centers use about 74 percent of their funding for 
competitively awarded research grants for scientists studying in their 
region. NURP support often includes the provision to scientists of 
equipment developed and owned by the centers, as well as technical 
support.
    The OE program, also located in OAR, provides grants to researchers 
for expeditions to discover and document unknown or little know 
features of the oceans and Great Lakes. The program is run by NOAA 
Headquarters and focuses on a smaller pool of scientists who attempt to 
discover and record new and novel physical, biological or chemical 
aspects of the deep ocean far from the continental shelf, often deeper 
than 10,000 feet. The program supports development of new technologies 
and works with academic and industry partners to adapt commercial and 
experimental technologies to deep-water exploration activities. 
Education and outreach is a high priority, and OE uses its high-profile 
expeditions to engage students and the general public in the 
exploratory process and raise awareness of marine issues and their 
impacts on people's daily lives.
    OE and NURP complement Office of Naval Research (ONR) and National 
Science Foundation (NSF) support for basic oceanographic research. OE 
expands the boundaries of the ``known'' marine environment, which can 
open up new lines of scientific inquiry, while NURP supports applied 
marine research that bridges the gap between basic marine science 
(funded by ONR and NSF) and the applied science and information needs 
of marine policy makers and resource managers.

Issues with NURP and OE:

Congressional Support for NURP
    NURP has always received substantial Congressional direction in 
terms of the location of the regional centers and the allocation of 
funding for each center. Some of the regional NURP centers were 
established by Congressional direction rather than by a competitive 
process. This led to a perception among many academic scientists that 
some NURP centers operate within closed communities whose resources 
were not allocated in a transparent, competitive and rigorous way, and 
whose activities have been unresponsive to NOAA's science needs and 
strategic goals.
    In the last decade, NOAA has attempted to bring NURP activities 
more in line with NOAA priorities and has formalized a centrally-
coordinated and transparent grant program. While research grants are 
still awarded through the individual centers, there is now a uniform 
peer review process that is patterned after NSF's peer review process 
and coordinated with NOAA research priorities.
    However, a new issue arose in the FY 2006 appropriations process. 
NURP funding was cut from approximately $17 million to $9 million and 
all NURP center funding was directed to the two centers on the West 
Coast. NOAA reprogrammed funding to maintain minimal services at the 
East Coast centers but it is unclear how the centers will fare in FY 
2007.

Measuring Program Success
    Some scientists remain concerned about the clarity of NURP's and 
OE's missions and the metrics used to measure the programs' success. 
NURP's mission is largely to enable and support marine research by 
developing and supporting technology and technical knowledge. Many of 
the benefits that NURP provides to the marine research community 
(accrued expertise and regional knowledge, for example) can be 
difficult to define or quantify. OE's mission is to observe and survey 
little-known regions of the ocean. However, some scientists have 
criticized the OE program for not providing support or guidance for 
research beyond the initial observation of unexplored areas.

Merger of NURP and OE
    In response to appropriations report language in 2004, which 
directed NOAA to consider realigning programs in OAR, NOAA has begun 
the process of merging NURP and the OE program, although it has not yet 
provided any details on how it will accomplish this. However, the 
current organization of the two programs is quite different. OE is a 
highly centralized program, run out of NOAA Headquarters, that manages 
and enables large-scale, deep water exploration of oceans around the 
world. In contrast, NURP is a regionally organized program that 
supports detailed study of marine resources and habitats within 200 
miles of U.S. coasts and focuses its scientific support on operational 
and strategic priorities in line with NOAA's stewardship missions.
    Scientists have expressed concern that the structures of the two 
programs are divergent and that a merger may result in the loss of 
significant and important benefits of one or both programs. Experts who 
are concerned with the vitality of the Nation's ocean exploration 
programs express concern that OE funding would be directed to 
operational and mission-oriented efforts rather than the deep water 
discovery that they see as the most critical. Marine researchers and 
managers who interact with the NURP program are concerned that if the 
merged program became more centralized the emphasis on regionally-
important research would decrease. Proponents of both programs are 
concerned that combining the programs will result in a net decrease in 
funding for both efforts and an associated decline in the quality and 
quantity of marine research.

Administration of the Ocean Exploration Program
    In 2003, the National Research Council of the National Academies 
released a study of ocean exploration programs that called for a 
dedicated national ocean exploration program. The report suggested the 
National Oceanographic Partnership Program (NOPP) would be the most 
appropriate place to form the program, rather than NOAA. (NOPP is a 
collaboration of 15 federal agencies that is supposed to coordinate all 
national ocean research.) Concerns over placing the program in NOAA 
stemmed from recurring problems in existing programs such as ``slow 
grant processing and a lack of responsiveness to researchers'' and 
NOAA's focus on internal NOAA agency topics that do not explicitly 
include exploration of the marine environment.
    In contrast, in September 2004, the U.S. Commission on Ocean 
Policy, established by the Oceans Act of 2000, submitted a report 
entitled ``An Ocean Blueprint for the 21st Century,'' in which the 
Commission recommended that NOAA and NSF lead an expanded national 
ocean exploration program with collaboration from the U.S. Geological 
Survey and the U.S. Navy's Office of Naval Research.

Funding History of NURP and OE:

    From its inception in 1981 until the mid-1990s appropriations for 
NURP grew to approximately $20 million annually, then dropped to below 
$15 million. Between 1996 and 2005, NURP appropriations remained 
between $13 million and $18 million. Of that amount, approximately 70-
75 percent was directed to NURP centers; each East Coast center 
received approximately $1-$1.5 million and each of the two West Coast 
centers received approximately $2.5 million. As depicted in the table 
below, in FY 2006, NURP funding was cut from approximately $17 million 
to $9 million and all NURP center funding was directed to the two 
centers on the West Coast.
    The Office of Ocean Exploration was organized in 2001 with an 
appropriation of $4 million. The OE appropriation for 2002 was $14 
million, and for 2003 was $15.1 million. FY 2006 funding for OE dropped 
from $29 million to $14 million.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Background on Undersea Research and Ocean Exploration:

The Need for Ocean Exploration and Undersea Research
    More than 70 percent of the Earth's surface is covered by oceans. 
The oceans and Great Lakes are a source of valuable living and non-
living resources, provide enormous benefit to the transportation and 
recreation industries, impact development and human health around the 
country, contain vast quantities of mineral and fossil fuel deposits, 
and play a key role in Earth's climate system. The oceans also 
influence the economy. NOAA estimates that in 2003 commercial and 
recreational fishing contributed $43.5 billion to the national GDP. In 
addition, over 90 percent of the U.S. population is served by shipping 
on the oceans and Great Lakes.
    Despite the present and future benefits that the oceans and Great 
Lakes provide, the world's oceans remain virtually unexplored and un-
described. A few examples illustrate this:

        <bullet>  NOAA estimates that over 99 percent of the oceans' 
        floors have yet to be explored, and maps of Earth's ocean 
        bottoms have a resolution of seven miles. By comparison the 
        Mars Global Surveyor has photographed the surface of Mars with 
        a resolution as high as 1.6 feet.

        <bullet>  Pulley Ridge, a 60-mile-long reef off the coast of 
        Florida, hosts a diverse and thriving ecosystem in water that 
        is shallow enough to dive in, but was unknown until less than a 
        decade ago.

        <bullet>  Discovered only within the last decade, deep-sea 
        corals appear to offer critical habitat to many marine species 
        including commercially important fish species.

    Our incomplete understanding of the marine environment raises 
concern among many researchers and policy-makers that resource 
management and research priorities cannot be set to make the best 
possible use of research dollars and to most effectively support policy 
decisions. For example, because they were unknown, deep-sea corals were 
not being included in research, conservation and management efforts 
until very recently.
The Federal Role in Undersea Research and Ocean Exploration
    One of NOAA's missions is to understand and predict changes in the 
oceans and Great Lakes to enable effective conservation and management 
of the Nation's marine resources. Developing the information and 
knowledge base to meet this mission requires thorough study of marine 
environments. However, the study of underwater environments is not as 
simple as equivalent studies on land. Aquatic environments pose 
significant technical challenges to the use of observing and recording 
technologies that land-based scientists take for granted, such as 
satellite observations, aerial photography, GPS, and simple human 
observation. To be able to spend time beneath the surface of lakes and 
oceans to perform marine research, humans require sophisticated 
technology such as SCUBA, submersibles, remotely operated and 
autonomous underwater vehicles, and in situ observation systems. Each 
of these technologies has taken years to develop and, in some cases, 
years to adapt to research use. These technologies are costly and 
require significant technical expertise to reduce the risk to 
researchers and equipment to acceptable levels. Few researchers have 
the time and resources to devote to acquiring and mastering these 
technologies and many marine science programs cannot afford the 
infrastructure and support staff needed to sustain such programs. By 
providing long-term funding and strategic direction for marine science, 
NURP and OE have become repositories of the equipment and expertise 
that scientists need to pursue underwater exploration and research. See 
Appendix II for a more detailed history of the two programs.

Witness Questions:

    The witnesses were asked to address the following questions in 
their testimony:

        1.  What are the strengths and weaknesses of H.R. 3835? In 
        particular:

                <bullet>  Does the bill capitalize on the strengths of 
                the programs, and effectively address their weaknesses? 
                If not, what changes to the bill would you recommend?

                <bullet>  Does the bill provide appropriate guidance 
                for the scope and direction of these programs? If not, 
                should the bill language be more or less prescriptive, 
                and how?

                <bullet>  What specific changes to the bill do you 
                recommend to strengthen the legislation?

        2.  What are the strengths and weaknesses of the current 
        National Undersea Research and Ocean Exploration Programs? What 
        steps need to be taken to ensure the rigor of these programs 
        and to encourage appropriate follow-on projects to meet their 
        missions? Do you believe that these programs would be 
        strengthened by a merger? If so, what form should a merger 
        take? If not, why not?

Appendix I

                Section by Section Summary of H.R. 3835
Title I--National Ocean Exploration Program
Sec. 101--Short Title
    Specifies that this title may be referred to as the ``National 
Ocean Exploration Program Act.''
Sec. 102--Establishment
    Directs that the Secretary of Commerce, through the Administrator 
of the National Oceanic and Atmospheric Administration (NOAA), shall, 
in consultation with the National Science Foundation and other 
appropriate federal agencies, establish a coordinated national ocean 
exploration program within NOAA that promotes collaboration with 
existing programs, including NURP.

Sec. 103--Authorities
    The Administrator of NOAA shall: conduct interdisciplinary 
exploration voyages or other scientific activities in conjunction with 
other federal agencies or academic institutions to survey little known 
areas of the marine environment, inventory, observe and assess living 
and non-living marine resources, and report such findings; give 
priority attention to deep ocean regions, with a focus on surveying 
deep water systems that hold potential for important scientific 
discoveries; conduct scientific voyages to locate, define, and document 
historic archaeological sites; in consultation with the National 
Science Foundation, develop a transparent process for peer review of 
proposals; enhance the technical capabilities of the United States 
marine science community; accept donations of property, data, and 
equipment for exploring the oceans or increasing knowledge of the 
oceans; and establish an ocean exploration forum to encourage 
partnerships and promote communications.
Sec. 104--Ocean Exploration Technology and Infrastructure Task Force
    In coordination with the National Aeronautics and Space 
Administration, the U.S. Geological Survey, Office of Naval Research, 
and relevant governmental, non-governmental, academic and other 
experts, NOAA shall convene an ocean exploration technology and 
infrastructure task force to develop and implement a strategy to: 
facilitate the transfer of new technology to the ocean exploration 
program; improve the availability of communications infrastructure to 
the program; develop an integrated, workable, and comprehensive data 
management information processing system that will make information on 
unique and significant features obtained by the program available for 
research and management purposes; conduct public outreach in 
conjunction with relevant programs of NOAA, NSF and other agencies; and 
encourage cost-sharing partnerships that will assist in transferring 
exploration technology and expertise to the program.
Sec. 105--Interagency Financing
    NOAA, NSF, and other involved federal agencies are authorized to 
participate in interagency financing.
Sec. 106--Application with Outer Continental Shelf Lands Act
    Specifies that nothing in this title or in Title II shall 
supersede, or limit the authority of the Secretary of the Interior 
under the Outer Continental Shelf Lands Act (43 U.S.C. 1331 et seq.).
Sec. 107--Authorization of Appropriations
    Authorizes appropriations to NOAA to carry out this title. 
Authorization levels begin at $30.5 million for FY 2006 and increase by 
approximately 10 percent each year to $71.92 million for FY 2015.

Title II--Undersea Research Program
Sec. 201--Short Title
    Specifies that this title may be referred to as the ``NOAA Undersea 
Research Program Act of 2005.''
Sec. 202--Establishment
    Specifies that the Administrator of NOAA shall establish and 
maintain an undersea research program and shall designate a Director of 
that program.
Sec. 203--Purpose
    Specifies that the purpose of the program is to increase scientific 
knowledge essential for the informed management, use and preservation 
of oceanic, coastal, and large lake resources through undersea 
research, exploration, education, and technology development. Also 
specifies that the program shall be part of NOAA's undersea research, 
education and technology development efforts and shall make available 
the infrastructure and expertise to service the undersea science needs 
of the academic community.
Sec. 204--Program
    Specifies that the program shall be conducted through a national 
headquarters, a network of regional undersea research centers, and a 
national technology institute. The Director shall provide overall 
direction with advice from a Council comprised of the directors of the 
regional centers and the national technology institute.
Sec. 205--Regional Centers and Technology Institute
    Specifies that the regional centers and national technology 
institute shall provide: core research and exploration based on 
national and regional priorities; further advance undersea technology 
development to support NOAA's research mission and programs, including 
technology associated with seafloor observatories such as LEO-15 and 
the Aquarius habitat, remotely operated vehicles, autonomous underwater 
vehicles, and new sampling and sensing technologies; undersea science-
based education and outreach programs to enrich ocean science education 
and public awareness of the oceans and Great Lakes; programs for the 
discovery, study, and development of natural products from ocean and 
aquatic systems.
Sec. 206--Competitiveness
    Specifies that no more than 10 percent of the program budget may be 
set aside for discretionary spending on rapid response activities and 
NOAA-related service projects. Further specifies that all other 
external projects supported by the regional centers shall be managed 
using an open and competitive process to evaluate scientific merit, 
relevance to NOAA, regional and national research goals, and technical 
feasibility.
Sec. 207--Authorization of Appropriations
    Authorizes appropriations to NOAA to carry out this title. 
Authorization levels begin at $12.5 million for the regional centers 
and $5 million for the national technology institute for FY 2006, and 
increase by approximately 10 percent each year to $29.47 million for 
the regional centers and $11.79 percent for the national technology 
institute in FY 2015. Stipulates in each fiscal year that 50 percent of 
the funds for the regional centers shall be for West Coast Regional 
Centers and 50 percent shall be for East Coast Regional Centers.

Appendix II

NURP and OE Program History

    NOAA has been a center of technical marine expertise since it was 
established by executive order in 1970. The Manned Undersea Science and 
Technology (MUST) office, established in the early 1970s, supported 
NOAA SCUBA dive and undersea habitat operations around the world. The 
National Research Council examined the MUST program and related efforts 
in a 1980 report entitled, ``The OceanLab Concept'' which proposed a 
reorganization of MUST into a NOAA Dive Program and a regional undersea 
research and technology program designed to better integrate NOAA with 
academic and industry dive communities. The report supported the 
formation of a National Underwater Laboratory System which culminated 
in the formation of the National Undersea Research Program in 1981. 
During most of the following 15 years, NURP was a Congressionally-
directed program for which the Administration did not request funding. 
Starting in 1995, NURP became a line item in NOAA's budget request. In 
1997, NURP underwent ``Reinvention'' in which the program was realigned 
to match NOAA's strategic mission more closely, and a three to five 
year review process was implemented to periodically review each of the 
NURP centers.
    By the late 1990s, NOAA exploration efforts were not an organized 
part of the agency's activities. In June 2000, the President 
commissioned the Secretary of Commerce to hold a panel on the state of 
ocean exploration. The final report was presented to the President in 
October of 2000 and outlined the need for a national ocean exploration 
program focused on the goal of discovery. The panel recommended the 
undertaking of multidisciplinary expeditions to include physical, 
geological, biological, chemical and archaeological oceanographic 
exploration and mapping, exploration of ocean dynamics and 
interactions, the development of new sensors and technologies to ensure 
that the United States remain at the forefront of ocean exploration, 
and an extensive campaign to utilize new methods to improve ocean 
literacy and information dissemination to research communities and the 
public. The report emphasized the need to revitalize a purely oceanic 
exploratory program to expand our general knowledge of the extent and 
content of marine environments around the world.
    In response, NOAA established the Office of Ocean Exploration 
within OAR in 2001. OE was directed to study new ocean resources, 
research ocean acoustics, document American maritime heritage, explore 
ocean frontiers, and conduct a census of ocean life. In collaboration 
with other NOAA programs, academic institutions, and several non-
governmental organizations, this Program has completed over 100 
expeditions and has explored a wide variety of unique ecosystems from 
the deep waters in the Gulf of Mexico to Alaska's continental shelf, 
where more than 4,000 shipwrecks line the ocean bottom.
    Chairman Ehlers. This hearing will come to order.
    Good afternoon. I want to welcome everyone to this hearing 
on undersea research and ocean exploration, and I especially 
want to thank our witnesses for testifying. We have an 
excellent panel with us today to help us discuss how best to 
organize NOAA's marine research efforts.
    The bill that we will discuss today authorizes two ocean 
programs at NOAA, the National Undersea Research Program, or 
NURP, and the Ocean Exploration Program, known as OE. These two 
programs provide critical tools and information that allow 
scientists and policy-makers to better understand and manage 
our nation's marine resources.
    Unfortunately, not everyone appreciates, yet, just how 
important the oceans and the Great Lakes are to our daily 
lives. More than 70 percent of the Earth's surface is covered 
by oceans, seas, and the Great Lakes. Together, they are a 
source of valuable living and nonliving resources, are critical 
corridors for transportation and shipping, and provide some of 
the most popular recreation and vacation sites in the country.
    Large quantities of mineral and fossil fuel wealth exist 
beneath the surface of the Earth's oceans, and novel new 
compounds with potential practical applications, are discovered 
on a regular basis. We could spend this entire hearing just 
talking about how important the oceans and Great Lakes are to 
all of us, but the most amazing fact about these incredible 
resources and the reason that we are here today is how little 
we know about them, and how much we have yet to learn.
    I know our panel will make this point even more clearly, so 
I will give just a few brief illustrations of how much we don't 
know, and by the way, I think it is very important in science 
to know what you don't know, and so that you can ask the right 
questions.
    NOAA estimates that over 95 percent of the world's oceans 
and over 99 percent of the ocean floor have yet to be explored. 
Today, maps of Earth's oceans' bottoms have a resolution of 
seven miles. This means that we can't even see features the 
size of the National Mall. By comparison, the Mars Global 
Surveyor has photographed the surface of Mars with a resolution 
as high as 1.6 feet. Amazingly, we have even been able to 
locate the Mars Rover, a device the size of an average office 
desk.
    Pulley Ridge, a 60-mile long reef off the coast of Florida, 
hosts a diverse and thriving ecosystem, but was unknown until 
less than a decade ago. A good comment I heard over National 
Public Radio a few months ago pointed out that well over a 
thousand people have now climbed to the top of Mount Everest, 
several hundred astronauts have gone out into space, but only a 
few people have reached the bottom of the ocean to do 
exploration. One of our closest resources is yet largely 
unexplored.
    Effective management of our marine resources requires a 
well organized, carefully thought out science program to both 
fill in the gaping holes in our knowledge, and give our 
managers and policy-makers the tools and information they need 
to do their jobs. We are here today to talk about two critical 
pieces of that science program.
    Ocean exploration helps us define the scope and scale of 
marine environments, and gives us proper context within which 
to ask the best scientific and policy questions. NURP gives 
scientists the specialized technical support they need to fill 
the gap between basic marine science and the more applied 
science and information needs of policy-makers and resource 
managers around the country.
    There are two issues that I hope we will be able to address 
clearly today. The first has to do with clarifying the benefits 
that NURP and OE provide to the country. In the increasingly 
challenging budget environment, we cannot afford to squander 
resources on unfocused or poorly guided programs. I hope to 
learn from our witnesses whether the bill before us provides an 
appropriate structure for the two programs.
    The second issue has to do with the proposed merger of the 
two programs. We need to be assured that this process has been 
carefully thought through, and includes adequate input from the 
broader marine science--pardon me--community. Without careful 
planning and the support of the community, a merger may do more 
harm than good. We need to decide if the bill provides 
appropriate guidance and flexibility to this process, so that 
whatever comes out in the end will strengthen, not weaken, our 
nation's marine science efforts.
    I again want to thank our witnesses for being here today. I 
certainly look forward to your testimony and to an informative 
discussion.
    I am now pleased to recognize Mr. Wu for his opening 
statement.
    [The prepared statement of Chairman Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Good afternoon! I want to welcome everyone to this hearing on 
undersea research and ocean exploration, and I especially want to thank 
our witnesses for testifying. We have an excellent panel to help us 
discuss how best to organize NOAA's marine research efforts. The bill 
that we will discuss today authorizes two oceans programs at NOAA: The 
National Undersea Research Program--or NURP--and the Ocean Exploration 
Program--known as OE. These two programs provide critical tools and 
information that allow scientists and policy-makers to better 
understand and manage our nation's marine resources.
    Unfortunately, not everyone appreciates--yet--just how important 
the oceans and Great Lakes are to our daily lives. More than 70 percent 
of the Earth's surface is covered by oceans, seas, and the Great Lakes. 
Together they are a source of valuable living and non-living resources, 
are critical corridors for transportation and shipping, and provide 
some of the most popular recreation and vacation sites in the country. 
Large quantities of mineral and fossil fuel wealth exist beneath the 
surface of the oceans, and novel new compounds with potential practical 
applications are discovered on a regular basis. We could spend this 
entire hearing just talking about how important the oceans and Great 
Lakes are to all of us, but the most amazing fact about these 
incredible resources--and the reason that we are here today--is how 
little we know about them, and how much we have yet to learn. I know 
our panel will make this point even more clearly, so I will give just a 
few brief illustrations of how much we don't know:

        <bullet>  NOAA estimates that over 95 percent of the world's 
        oceans and over 99 percent of the ocean floor have yet to be 
        explored.

        <bullet>  Today, maps of Earth's ocean bottoms have a 
        resolution of seven miles. This means that we can't even see 
        features the size of the National Mall. By comparison the Mars 
        Global Surveyor has photographed the surface of Mars with a 
        resolution as high as 1.6 feet. Amazingly, we have even been 
        able to locate the Mars Rover, a device the size of an average 
        office desk.

        <bullet>  Pulley Ridge, a 60-mile-long reef off the coast of 
        Florida, hosts a diverse and thriving ecosystem, but was 
        unknown until less than a decade ago.

    Effective management of our marine resources requires a well 
organized, carefully thought-out science program to both fill in the 
gaping holes in our knowledge and give our managers and policy-makers 
the tools and information they need to do their jobs. We're here today 
to talk about two critical pieces of that science program. Ocean 
Exploration helps us define the scope and scale of marine environments 
and gives us proper context within which to ask the best scientific and 
policy questions. NURP gives scientists the specialized technical 
support they need to fill the gap between basic marine science and the 
more applied science and information needs of policy-makers and 
resource managers around the country.
    There are two issues that I hope we will be able to address clearly 
today. The first has to do with clarifying the benefits that NURP and 
OE provide to the country. In the increasingly challenging budget 
environment, we cannot afford to squander resources on unfocused or 
poorly guided programs. I hope to learn from our witnesses whether the 
bill before us provides an appropriate structure for the two programs.
    The second issue has to do with the proposed merger of the two 
programs. We need to be assured that this process has been carefully 
thought through and includes adequate input from the broader marine 
science community. Without careful planning and the support of the 
community, a merger may do more harm than good. We need to decide if 
the bill provides appropriate guidance and flexibility to this process 
so that whatever comes out in the end will, strengthen--not weaken--our 
nation's marine science efforts.
    I again want to thank our witnesses for being here today--I look 
forward to your testimony and to an informative discussion.
    I will now recognize our Ranking Member, Mr. Wu.

    Mr. Wu. Thank you, Mr. Chairman, and good afternoon, ladies 
and gentlemen.
    Our nation has the fortunate advantage of vast coastal and 
oceanic resources, including those of the Great Lakes. Over 
half of our citizens live in coastal watersheds. Our ocean and 
coastal resources are the basis of billions of dollars of 
economic activities, including recreation, fisheries, oil and 
mineral extraction, and transportation.
    Healthy oceans are critical to our future. Improved 
knowledge to manage ocean and coastal resources in a more 
sustainable fashion is essential if we are to continue to 
derive the full benefit of these valuable assets now and into 
the future.
    We are coming upon the two year anniversary of the release 
of the report by the U.S. Ocean Commission. Sadly, few of its 
recommendations have moved forward.
    The Commission's report notes the President's Panel on 
Ocean Exploration called for a robust national ocean 
exploration program in 2000. The panel's recommendation was to 
initiate multidisciplinary expeditions funded at a level of $75 
million per year. Their recommendation led to the establishment 
of NOAA's Office of Exploration in 2001, with a budget of $4 
million.
    The Commission report indicates the small budget of NOAA's 
Office of Exploration and its agency-specific focus limit its 
effectiveness. They recommend that NOAA combine its efforts 
with those of the National Science Foundation to link NOAA's 
exploration activities to NSF's strong traditional oceanic 
research programs.
    There is no shortage of enthusiasm for ocean exploration, 
and there are still vast, unexplored areas of the ocean, as the 
Chairman has noted. However, we are constrained by the budget 
available to fund all the expeditions we would like to 
undertake. H.R. 3835 authorizes additional funding for NOAA's 
programs in ocean exploration and undersea research, but 
without expanding NOAA's overall budget, I do not see how we 
will be able to act upon the recommendations of the U.S. Ocean 
Commission.
    The Administration proposed combining NOAA's Ocean 
Exploration Program with the National Undersea Research 
Program. H.R.3835 appears to maintain these programs as 
separate entities. I am very interested to hear the opinions of 
our panel about this--these differing proposals.
    I would like to welcome all of you today and thank you for 
participating in this hearing. I look forward to hearing your 
testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wu follows:]

             Prepared Statement of Representative David Wu

    Good afternoon. Thank you, Mr. Chairman for holding this hearing on 
ocean exploration and research.
    Our nation has the fortunate advantage of vast coastal and oceanic 
resources. Over half of our citizens live in coastal watersheds. Our 
ocean and coastal resources are the basis of billions of dollars of 
economic activities including recreation, fisheries, oil and mineral 
extraction, and transportation. Healthy oceans are critical to our 
future. Improved knowledge to manage ocean and coastal resources in a 
more sustainable fashion is essential if we are to continue to derive 
the full benefit of these valuable assets now and into the future.
    We are coming upon the two-year anniversary of the release of the 
report by the U.S. Ocean Commission. Unfortunately, few of its 
recommendations have moved forward.
    The Commission's report notes the President's Panel on Ocean 
Exploration called for a robust national ocean exploration program in 
2000. The panel's recommendation was to initiate multidisciplinary 
expeditions funded at a level of seventy-five million dollars per year. 
Their recommendation led to the establishment of NOAA's Office of 
Exploration in 2001 with a budget of four million dollars.
    The Commission report indicates the small budget of NOAA's Office 
of Exploration and its agency-specific focus, limit its effectiveness. 
They recommended NOAA combine its efforts with those of the National 
Science Foundation to link NOAA's exploration activities to NSF's 
strong traditional oceanic research programs.
    There is no shortage of enthusiasm for ocean exploration and there 
are still vast unexplored areas of the ocean. However, we are 
constrained by the budget available to fund all the expeditions we 
would like to undertake. H.R. 3835 authorizes additional funding for 
NOAA's programs in ocean exploration and undersea research, but without 
expanding NOAA's overall budget I do not see how we will be able to act 
upon the recommendations of the U.S. Ocean Commission.
    The Administration proposed combining NOAA's ocean exploration 
program with the National Undersea Research Program (NURP). H.R. 3835 
appears to maintain these programs as separate entities. I am very 
interested to hear the opinions of our witnesses this afternoon about 
this proposal.
    I would like to welcome our panel of witnesses today and thank you 
for participating in the hearing. I look forward to hearing your 
testimony.

    Chairman Ehlers. Thank you, Mr. Wu.
    If there are Members who wish to submit opening statements, 
their statements will be added to the record. Without 
objection, so ordered.
    Just a word of explanation about procedure. We have two 
Members of Congress who are going to constitute Panel I, and 
this group is to be Panel II. The Honorable Jim Saxton of New 
Jersey and the Honorable Robert Simmons of Connecticut. 
Unfortunately, they are tied up in another committee meeting 
and cannot get away at this time. They will come when they are 
able to, and I apologize, but you will summarily be displaced 
while we take their testimony. It would not take long, because 
we normally don't question fellow Members of Congress, because 
we have immediate access to them at any time. So, it would be a 
brief probably 15-minute interlude, and then we would resume 
the hearing. If they don't show up by the time you are 
finished, you have nothing to fear. They may have something to 
fear, but you won't.
    All right. At this time, I would like to introduce our 
first panel of witnesses. First, Dr. Richard Spinrad, Assistant 
Administrator of the National Oceanic and Atmospheric 
Administration Office of Oceanic and Atmospheric Research, 
better known as OAR.
    Next, Mr. Andrew Shepard, Director of the National Undersea 
Research Center, University of North Carolina, Wilmington. If 
we have a lot more global warming, will your entire lab be 
undersea as well?
    Okay. Next, we have Dr. Marcia McNutt, President and CEO of 
Monterey Bay Aquarium Research Institute, which is not only an 
outstanding research institute, but has the best view of any of 
them.
    We are pleased to welcome all of you. I assume the 
witnesses have been informed that spoken testimony is limited 
to five minutes each. We have the little black box up there. 
Green means go, go, go. Yellow means you don't have much time 
left, wrap it up, and red means you are in trouble. So, you 
have five minutes each, and if your testimony is longer than 
that, it will certainly go into the record in total, but we 
will ask you to wrap up as soon as possible after five minutes.
    So, we will start hearing the testimony of Dr. Spinrad.

 STATEMENT OF DR. RICHARD W. SPINRAD, ASSISTANT ADMINISTRATOR, 
 OFFICE OF OCEANIC AND ATMOSPHERIC RESEARCH, NATIONAL OCEANIC 
  AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Dr. Spinrad. Thank you, Mr. Chairman and Members of the 
subcommittee. I appreciate the opportunity to speak to you 
today about undersea research and ocean exploration. I am Dr. 
Richard Spinrad, the Assistant Administrator for NOAA's Office 
of Oceanic and Atmospheric Research.
    My office is responsible for leading and conducting 
scientific research, environmental studies, and technology 
development for NOAA. Today, I will discuss the programs 
detailed in H.R. 3835, an Act to Establish a Coordinated 
National Exploration and Undersea Research Program in NOAA.
    My written testimony addresses NOAA's technical comments on 
the bill. However, I want to emphasize today NOAA's strong 
support for the overall intent of H.R. 3835. In keeping with 
the Administration's commitment to ocean exploration, as 
described in the U.S. Ocean Action Plan, this piece of 
legislation elevates the importance of science-based ocean 
exploration and undersea technology development. The Act 
recognizes these activities as vital national missions, and 
strengthens federal efforts to pursue and support our 
understanding of the planet. We must remember that over 70 
percent of the Earth's surface is covered by our oceans and 
remains vastly unexplored.
    Our understanding of the ocean environment will be enhanced 
by our creation of a dedicated, integrated national program for 
exploration and advanced ocean technology development. In 2006, 
NOAA began a multiyear process to merge our National Undersea 
Research Program, or NURP, with the Office of Ocean 
Exploration, into a single Office of Ocean Exploration and 
Research. NOAA undertook this merger at the behest of Congress 
and NOAA's Science Advisory Board to increase the synergies 
between the two programs, focus on undersea technology, and 
leverage the program's broad expertise in regional partnership 
networks.
    Congress agreed to the merger in 2005, and in a spirit of 
transparency, we are currently conducting a series of workshops 
and discussions with our external partners to resolve the 
details. From my perspective, the merger is also about 
preserving research assets, which include our scientists and 
infrastructure in NOAA, and in our regional undersea research 
centers.
    Unfortunately, however, recent Congressional support for 
the program has dwindled, as evidenced by the fiscal year 2006 
appropriation and the 2007 House mark, which have been 
substantially below the President's request. The fiscal year 
2007 President's budget request restores funding to our 
undersea research and ocean exploration programs at appropriate 
levels to meet the Nation's needs. Though NOAA has taken 
extraordinary steps to protect these assets, in the absence of 
sufficient funding, the effectiveness and future of the 
programs are at risk.
    So, what is at stake? Let me describe a few capabilities 
that each of these programs brings to the table in this merger, 
and how each benefits our great Nation. Ocean exploration is an 
exciting adventure. It immediately captures the imagination. It 
is also serious, hardcore science. At its most fundamental, 
exploration improves our knowledge of living marine resources, 
their habitats, and ecosystems. Our knowledge in turn enhances 
fisheries and ocean stewardship, and benefits marine resource 
management. The economic and social benefits of exploration are 
significant. Wherever the program has looked, valuable new 
discoveries and information have been found.
    For instance, our explorations have discovered deep sea 
organisms that have significant potential for new cancer drug 
treatments, pain inhibitors, and other pharmaceutical uses. 
Importantly, no other dedicated source of federal funding or 
logistics exists for pure exploratory-based ocean science. In 
2007, we launch a new voyage of learning and discovery through 
ocean exploration when the Okeanos Explorer, a former Navy 
vessel, is converted to join the NOAA fleet as the Federal 
Government's only dedicated ocean exploration ship.
    For over 25 years, NOAA's National Undersea Research 
Program has served the Nation by supporting research and 
providing cutting edge advanced technologies. NURP also 
provides the infrastructure necessary to support undersea 
operations for both the academic community and NOAA. The 
program has also played a strong role in developing next 
generation concepts for coastal observing systems.
    NURP has also developed a series of autonomous or remotely 
operated undersea vehicles. These vehicles let us explore parts 
of the world never seen before. In fact, in May, one of these 
vehicles was used to observe lava actively erupting from an 
undersea volcano in the Pacific for the first time. These 
unique observations will help us learn more about the 
contribution of oceanic volcanoes to the Earth's climate and 
their effects on ocean ecosystems.
    NURP's autonomous undersea vehicles and next generation 
chemical, physical, and biological sensor development will also 
help us study critical elements in the marine environment. For 
example, deposits of methane hydrates in the Gulf of Mexico, 
which NURP helped discover, have potential benefits as an 
untapped domestic energy source, but also may contribute to 
climate change.
    NOAA's Office of Ocean Exploration and Undersea Research 
will have the special technological expertise and equipment to 
contribute to this research. With the merger of the Office of 
Ocean Exploration and the National Undersea Research Program, 
we combine the search for new discoveries with the development 
of the advanced marine technologies to furthering our 
exploration of the oceans. This new ocean exploration and 
advanced technology development program will present a powerful 
new capability, and provide a sound foundation for the 
aggressive ocean exploration and undersea technology 
development that our nation needs.
    Thank you for this opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Dr. Spinrad follows:]

                Prepared Statement of Richard W. Spinrad

    Good morning, Mr. Chairman and Members of the Committee. I am 
Richard W. Spinrad, Assistant Administrator for Oceanic and Atmospheric 
Research at the National Oceanic and Atmospheric Administration (NOAA) 
in the Department of Commerce. Thank you for inviting me to discuss 
H.R. 3835 and the role of the National Oceanic and Atmospheric 
Administration (NOAA) in ocean exploration and undersea research.
    NOAA's vision is an informed society that uses a comprehensive 
understanding of the role of the oceans, coasts, and atmosphere in the 
global ecosystem to make the best social and economic decisions. NOAA's 
mission is to understand and predict changes in the Earth's environment 
and conserve and manage coastal and marine resources to meet our 
nation's economic, social, and environmental needs. NOAA's Office of 
Ocean Exploration and National Undersea Research Program (NURP) are 
contained within the Office of Oceanic and Atmospheric Research (OAR). 
In support of NOAA's mission, OAR conducts the scientific research, 
environmental studies, and technology development needed to improve our 
operations and broaden our understanding of the Earth's atmosphere and 
oceans. The Office of Ocean Exploration is devoted exclusively to the 
critical mission of exploring the still largely unknown ocean. The 
ocean exploration program focuses on discovery of new ocean resources 
for societal and economic benefits, serves as an effective means to 
promote ocean education and ocean literacy, and enables NOAA to become 
aware of ocean issues that may become the basis for future NOAA 
missions. NURP harnesses the academic community to focus on NOAA's 
undersea research needs. NURP currently supports NOAA's mission by 
providing undersea scientists inside and outside NOAA with advanced 
technologies, such as an underwater laboratory, submersibles and 
remotely operated vehicles, and the expertise needed to work in the 
undersea environment.
    I am pleased to be here today to discuss H.R. 3835, an act to 
establish a coordinated national ocean exploration program within NOAA. 
NOAA supports the intent of this legislation. Title I of the bill 
addresses ocean exploration; Title II addresses NOAA's complementary 
program in undersea research. Together, these two programs provide a 
solid foundation for the aggressive ocean exploration and undersea 
technology program for our nation. Today, I will outline our current 
ocean exploration and undersea research programs, describe our planned 
merger of these programs, and explain why this legislation is important 
to NOAA.
    In his preface to the President's Panel on Ocean Exploration report 
in 2000, former Secretary of Commerce Norman Mineta eloquently stated 
the importance of ocean exploration to our nation's interests and 
future:

         ``Our nation's history, from colonization and westward 
        expansion to the deployment of the Hubble telescope, is 
        testament to the fact that America is a country of explorers. 
        Our pride as a nation is founded upon our yearning to make new 
        discoveries and to seek out new knowledge. Exploration of the 
        oceans responds to a growing national interest in our seas and 
        an acknowledgement of their importance to our environment and 
        quality of life.

         We are growing in the awareness that the ocean influences our 
        daily lives in hundreds of ways. From providing fisheries 
        resources or cures for disease, to unlocking the secrets of 
        long-term climate variations, we are constantly reminded of the 
        ocean's importance in sustaining life. Truly, our economic, 
        environmental, and national security depends on our ability to 
        understand the ocean frontier, as well as balancing the 
        competing interests of conservation and economics.''

Historical Perspective

    In 2007, NOAA will celebrate 200 years of history of science and 
exploration, service, and stewardship of our nation's oceans, coasts, 
and Great Lakes. National interest in establishing a comprehensive 
ocean exploration program stretches back over 40 years, when, in the 
late 1960's, the Stratton Commission initiated the International Decade 
of Ocean Exploration. The resulting programs dramatically enhanced 
understanding of the global climate system, geochemical cycling, ocean 
circulation, plate geodynamics, and life in extreme environments. In 
1971, NOAA established the Manned Undersea Science and Technology 
(MUST) program, which pioneered exploration from undersea habitats. 
MUST was transitioned in 1980 from a primarily headquarters program to 
the extramural NURP. Since then, NURP has continued to provide the 
scientific community with the undersea tools to conduct exploration and 
cutting edge research.
    In 1983, an interagency effort to comprehensively map the U.S. 
exclusive economic zone (EEZ) was initiated. Our EEZ is the largest in 
the world spanning over 12,300 miles of coastline and contains 3.4 
million square nautical miles of ocean--larger than the combined land 
mass of all 50 states. While the surface of the ocean has been studied 
via remote sensing for basic physical and biogeochemical properties, 
today less than 10 percent of the U.S. EEZ has been mapped with current 
multi-beam technology. Less than five percent of the EEZ has been 
mapped at a resolution required for accurately defining habitat. In 
addition to our nation's EEZ, approximately 95 percent of the world's 
oceans have not been visited or studied in situ. This includes the 
major features such as the 31,000 miles of mid-ocean ridge crest, 6,200 
miles of deep sea trenches, over 30,000 sea mounts and the water-column 
of the ocean--which together are home to 99 percent of the Earth's 
living organisms. Because the scope of what remains unknown below the 
surface is enormous, we will continue to carefully prioritize the work 
we undertake.
    Increasing national interest in ocean exploration, in large part 
stimulated by NURP-sponsored activity, culminated in 2000, when a 
Presidential Panel on Ocean Exploration convened by the Department of 
Commerce called for a robust national ocean exploration program 
propelled by the spirit of discovery. The panel proposed a strategy of 
interdisciplinary expeditions, new partnerships, and integrated federal 
programs to characterize the vast array of biological, physical, and 
chemical environments of the oceans and foster the development of 
technology. The panel's recommendations led to the establishment of the 
Office of Ocean Exploration within NOAA in 2001.
    In 2003, a National Research Council report expressed support for a 
comprehensive national ocean exploration program strongly linked to 
traditional research, with broad international partnerships, and a 
commitment to educational opportunities. This report was followed in 
2004, by the U.S. Commission on Ocean Policy recommendation to 
establish an expanded ocean exploration program. In response to the 
report of the U.S. Commission on Ocean Policy, the Administration 
developed the U.S. Ocean Action Plan. Ocean exploration will be 
addressed in the context of the Ocean Research Priorities Plan and 
Implementation Strategy, which was called for as part of the U.S. Ocean 
Action Plan. The National Science and Technology Council Joint 
Subcommittee on Ocean Science and Technology (JSOST) is currently 
developing this interagency planning document and implementation 
strategy on priorities for ocean science technology for the next five 
to 10 years. As one of the Co-chairs of the JSOST (along with the 
National Science Foundation and the Office of Science and Technology 
Policy) I am closely involved in this work, and can report that we 
continue to make progress. On April 4, 2006, we released our Ocean 
Priorities Framework for developing the Ocean Research Priorities Plan 
and Implementation Strategy; the detailed plan is due at the end of 
this calendar year.

The Office of Ocean Exploration

    The recent sustained national interest in ocean exploration has 
resulted in an exciting, successful ocean exploration program within 
NOAA. The mission of this program is to conduct interdisciplinary ocean 
exploration expeditions and projects that provide scientific 
information as well as technical and educational leadership that 
contributes to NOAA's evolving environmental and economic missions. The 
program pursues this mission by focusing on four key goals:

Explore unknown and poorly known areas of the ocean: Exploration 
science expands our understanding of what resources and processes are 
in the oceans. The wealth of living and non-living resources yet to be 
discovered holds vast untapped economic potential and offers new 
opportunities for medical science. For example, microbial organisms 
that thrive in deep-sea environments produce novel enzymes and other 
compounds as a consequence of living in extremes of temperature and 
chemistry which have significant potential for creating bioproducts for 
use in pharmaceutical and industrial applications. Recent screenings 
show that these marine samples are 20 times more active than their 
terrestrial counterparts.

Ocean Mapping: Less than 10 percent of the U.S. EEZ has been mapped 
with current technology, and many resources, habitats, and features 
remain undiscovered. Our ability to manage ecosystems is dependent upon 
our ability to define the area these ecosystems cover. In conjunction 
with other NOAA mapping efforts, ocean exploration routinely maps ocean 
areas during expeditions to discover and record the physical, 
biological, geological, archaeological, and chemical nature of the 
oceans. This information is critical for both expanding our 
understanding of the U.S. EEZ, and supporting future establishment of 
the U.S. continental shelf, where potential resources such as mineral 
deposits, valued at $1.3 trillion, are estimated to exist.

New Technology: The Office of Ocean Exploration invests in new 
technologies to increase the pace, efficiency and scope of ocean 
discovery and to enhance the technical capability of the United States 
by promoting the development of improved oceanographic research, 
communication, navigation, and data collection systems, as well as 
underwater platforms and sensors. The program coordinates new 
technology needs and investments with other NOAA programs, other 
federal agencies, and through the National Oceanographic Partnership 
Program. The program also invests in projects that test and evaluate 
new and emerging technologies under live conditions. A merger of NOAA's 
ocean exploration program and undersea research program, which I will 
discuss later, will enhance NOAA's ability to support emerging 
technology in these areas.

Education and Outreach: The President's Ocean Action Plan calls for 
promoting lifelong ocean education as essential for fostering a strong 
economy, promoting healthy ecosystems and preparing a competitive 
workforce with the scientific understanding needed to balance the 
sustainable use and conservation of our natural resources. The ocean 
exploration program is a leader in this effort dedicating 10 percent of 
its budget to education and outreach to improve ocean literacy in the 
United States and to stimulate interest in ocean science. The program 
is uniquely positioned to use interdisciplinary expeditions as a 
catalyst to bring the excitement of ocean exploration to teachers and 
school children. The program's web site (www.oceanexplorer.noaa.gov) is 
rated in the top five worldwide in its category, by a major 
international science education authority. This web site, which 
includes teaching materials for educators, daily logs of expeditions, 
immediate reports of the discoveries, and live images of the seafloor, 
was visited by more than four million people last year. These efforts 
are inspiring a whole new generation to explore and work in the oceans 
which will help ensure that in the future the United States will have a 
competitive edge in the oceans and remain a global leader in ocean 
science and technology.
    In less than five years, the Office of Ocean Exploration has been 
able to successfully leverage federal funding, equipment, and expertise 
to assemble interdisciplinary teams of scientist-explorers in support 
of more than 100 ocean expeditions and projects to unknown and poorly 
known areas of the ocean. These ocean expeditions have discovered many 
new marine ecosystems (including fish and coral habitats); new species 
of micro and macro-organisms; and chemical and geological processes 
that impact the oceans such as large quantities of carbon dioxide 
produced by underwater volcanoes. These expeditions have also mapped 
thousands of square miles of ocean floor that had never been mapped 
before, where they discovered new land forms, including large submarine 
volcanoes, sea mounts, and extensive areas of deep water coral reef and 
sponge habitats.
    NOAA's partnerships with other federal agencies, academia, 
industry, ocean institutions and scientists from U.S. and international 
organizations are a vital component of NOAA's ocean exploration 
program. Together with our partners, NOAA increases our national 
understanding of ocean systems and processes by undertaking six to 10 
major voyages of discovery per year and funding up to 25 additional 
missions and exploration-related projects per year. All expeditions are 
selected through a rigorous peer-reviewed process. The program spends 
approximately 70 percent of its funds outside of NOAA on science that 
benefits the Nation's understanding of the oceans and ecosystems.
    Programs across NOAA benefit from new sources and scales of 
information generated by the Office of Ocean Exploration. These 
benefits include greater knowledge of living marine resources, their 
habitats, and ecosystems which enhance fisheries and ocean stewardship 
and comprehensive site surveys and inventories that inform management 
of NOAA's National Marine Sanctuaries. The program's characterization 
of the EEZ improves the management of habitat and marine resources, and 
by providing inventories of our nation's submerged cultural and 
historical resources, the Office of Ocean Exploration aids in the 
preservation of this heritage. The Office of Ocean Exploration also 
provides important governance and scientific investigation in support 
of the international Census of Marine Life, which is helping to 
identify important breeding areas and inform strategies for sustainable 
management.
    The Office of Ocean Exploration's efforts are, in turn, supported 
by other programs within NOAA including the National Oceanographic Data 
Center, which provides vital data access, archive, and assessment 
support. NOAA has also assembled a team of data and information experts 
from its National Geophysical Data Center, the National Coastal Data 
Development Center, NURP, and the NOAA Library to ensure the broadest 
public access and use of the results from its ocean expeditions. This 
team has developed procedures for ensuring archival and public access 
to the variety of the data products generated on these expeditions 
including underwater video, which has become an important new source 
for quantitative data about the ocean environment, as well as for 
stimulating public interest and life-long learning.
    We will see more opportunity for learning and discovery through 
ocean exploration when a new vessel dedicated to ocean exploration 
joins the NOAA fleet. After conversion, a former Navy vessel will be 
commissioned and named NOAA vessel Okeanos Explorer. The vessel will be 
available in 2008 to serve the Nation as a premier ocean research 
platform to conduct critical deep-sea missions including ocean floor 
mapping and biological and chemical oceanographic research. The vessel 
will also be equipped for ``telepresence,'' a satellite-based 
communications technology that allows shore-side scientists, teachers, 
and students to connect in near real-time with scientists at sea and to 
view images from the ocean and seafloor using high-speed Internet. The 
near real-time data and images are transmitted to science command 
centers ashore where teams of scientists augment the work of scientists 
and explorers at sea. By bringing multiple high-quality video streams 
and sensor data from the remote seafloor to scientists, teachers, and 
students on shore, the potential exists to revolutionize oceanographic 
research and ocean education. ``Telepresence'' technology was 
successfully pioneered on a NOAA-sponsored expedition to the deep-sea 
hydrothermal vent field known as the ``Lost City'' on the Mid-Atlantic 
Ridge in July 2005.
    The goals and missions of the current Ocean Exploration and 
Undersea Research Programs not only complement existing programs at 
NOAA, they also form the basis for growing partnerships with the 
National Science Foundation, and other federal agencies. For example, 
NOAA's Office of Ocean Exploration has initiated a pilot partnership 
with the National Science Foundation that has recently resulted in a 
highly successful, jointly funded exploration expedition to the 
Galapagos Ridge. This is a model for future, jointly funded cruises 
that support both OE's and NSF's interests in exploring unknown areas 
of the ocean.
    NOAA's ocean exploration program is a national program that 
provides the opportunity of discovery to our partners in academia, 
federal and State agencies, and industry. No other federal dedicated 
source of funding or logistics exists for discovery-based ocean 
science. The economic and social benefits of discovery are significant 
and the promise of future discovery is clear; wherever the program has 
looked, new discoveries and information have been found.

The National Undersea Research Program

    NURP has served NOAA and the Nation for over 25 years as an 
underwater research and technology program. NURP places scientists 
underwater using advanced technologies, either directly or remotely, 
and focuses its considerable expertise and connections to the academic 
community on NOAA's undersea research agenda. In recent years, the 
program has functioned through a network of six regional centers and an 
institute, hosted primarily by universities. Two centers are located on 
the West Coast in Hawaii and Alaska, and four are located on the East 
Coast in North Carolina, New Jersey, Connecticut, and Florida.
    NURP has a proven record of providing the advanced technologies and 
infrastructure necessary to support undersea research and exploration 
operations for both the academic community and NOAA. Through regional 
competitive processes, the program sponsors cutting edge undersea 
research, which is applicable to NOAA's stewardship and management 
missions. The program also fosters innovative uses of existing 
technologies to meet undersea exploration and research challenges. 
Through ownership or leasing, NURP has provided undersea systems that 
work from the coast to the deep sea. For example:

        <bullet>  NURP owns and operates the Aquarius, the world's only 
        underwater science laboratory, located in the Florida Keys 
        National Marine Sanctuary. Aquanauts live on and study 
        sensitive coral reef ecosystems threatened by natural and 
        human-caused impacts and are able to perform studies not 
        possible through traditional diving techniques.

        <bullet>  NURP operates undersea remotely operated vehicles 
        (ROVs) and autonomous undersea vehicles (AUVs) that increase 
        the access of researchers to the depth and breadth of the 
        oceans.

        <bullet>  NURP owns and operates the Pisces IV and V, human 
        occupied submersibles that enable scientists to explore the 
        deep ocean-depths down to 6,000 feet. In partnership with the 
        Office of Ocean Exploration in the summer of 2005, the Pisces 
        submersibles completed a historic expedition to the South 
        Pacific where scientists examined more than 20 previously 
        unexplored sub-sea volcanic ecosystems. The program also 
        provides scientists with access to research submarines 
        including the Alvin, Johnson Sea-Link, and Delta submersibles.

        <bullet>  NURP, as the lead office for fulfilling NOAA's 
        statutory responsibility to improve the safety and performance 
        of civilian divers, has supported advanced diving techniques, 
        which enable researchers to explore and characterize little 
        known habitats such as deep corals.

        <bullet>  NURP supports pioneering uses of technologies such as 
        multi-beam sonar, advanced cameras, and sea bed observing 
        instrumentation to address emerging ocean exploration and 
        undersea ocean observing, sampling, monitoring and modeling 
        issues for the National Ocean Service and the National Marine 
        Fisheries Service within NOAA.

    NOAA and the National Aeronautics and Space Administration (NASA) 
share the mission of exploration in remote and hostile ocean and space 
environments, respectively. Humans working both in space and under the 
ocean face similar challenges of lack of oxygen, weightlessness, 
extreme pressure differentials, and remote, cramped living quarters. 
Currently, the National Undersea Research Program and NASA conduct a 
uniquely successful partnership in which astronauts train and simulate 
Moon exploration at the Aquarius undersea laboratory. In addition to 
the operational benefits, this partnership provides a springboard for 
increased leveraging of exploration technology development between NOAA 
and NASA.
    In FY 2006, Congress appropriated funds for NURP at a level 
significantly below the President's budget request. This reduction 
eliminated support for the four East Coast centers, and reduced funding 
at the West Coast and Polar Regions Center at the University of Alaska, 
Fairbanks, by one half. NOAA redirected a small amount of funds 
internally to enable NURP to maintain essential personnel and equipment 
at the four centers during restructuring efforts. NURP, as supported by 
the Administration's FY 2007 request, will include both an East and 
West Coast capability. Further details of the restructuring are 
currently under discussion in consonance with the merger of the program 
with NOAA's Office of Ocean Exploration.

Office of Ocean Exploration and NURP Merger

    In FY 2007, NOAA will further address the need for ocean technology 
development by refocusing the priorities, direction, and partnerships 
of its National Undersea Research Program and merging it with the 
Office of Ocean Exploration (OE) (the Appropriations Committees 
concurred with this reorganization in 2005). Both NURP and OE strive to 
meet NOAA, national, and international needs for innovative undersea 
exploration and research. The merger of the two programs will help meet 
these needs and also effectively address NOAA's undersea technology 
requirements. Merging the two programs will more efficiently utilize 
our resources to focus on exploration and undersea technology 
challenges; expand the excitement of ocean exploration with a regional 
network of partnerships; and take advantage of efficiencies of time, 
personnel, and funding between both programs. The merged program will 
also allow NOAA to capitalize on the synergy between these programs to 
achieve the goal of expanding exploration into focused research, and 
then to finding operational or commercial applications for our 
discoveries. Together, these programs will provide a more robust 
program of ocean discovery.
    This merger is also an opportunity for NOAA to increase its 
emphasis and effectiveness in utilizing and developing advanced 
undersea technology. Despite recent technological advances, the current 
pace of discovery and acquisition of new knowledge is slow and is 
limited by the present requirement of having to conduct nearly all 
ocean exploration from surface ships. Ships support a variety of 
advanced technologies for accessing the underwater environment, but 
information collection is limited to observations from humans in 
submersibles or remote observations from cameras carried by robots 
tethered to the ship. An increased focus on ocean technologies would 
complement ship-based explorations by advancing the development and use 
of new underwater exploration assets and sensors, especially including 
autonomous underwater vehicles and remote sensing. Autonomous robots 
with their expanded sensing capabilities could significantly increase 
the pace of exploration, discovery, and generation of new knowledge. 
Such technological advancements would benefit the entire marine science 
community by developing improved systems for oceanographic research, 
communication, navigation, and data collection.
    The OE and NURP programs currently collaborate in a number of areas 
including expedition planning and execution, and data management. The 
full details of the merger are currently under discussion and will 
depend upon several factors including input from the regional undersea 
research centers and the extramural community, and program funding 
levels.

Support of the U.S. Ocean Action Plan

    NOAA is lead or co-lead for roughly half of the assigned items from 
the President's U.S. Ocean Action Plan, and has made significant 
strides on several actions. The Office of Ocean Exploration and NURP 
provide unique capabilities to gather, synthesize, and apply 
information collected during expeditions of discovery to directly 
address many of the challenges described in the U.S. Commission on 
Ocean Policy report and the President's Ocean Action Plan. The Office 
of Ocean Exploration and NURP are supporting several of NOAA's Ocean 
Action Plan actions through activities including: conversion of the 
ship Okeanos Explorer for dedicated ocean exploration, providing 
advanced undersea technologies to support and integrate with the U.S. 
Integrated Ocean Observing System (IOOS), participating in the Joint 
Subcommittee on Ocean Science and Technology development of an Ocean 
Research Priorities Plan and Implementation Strategy, participating in 
Integrated Coastal and Ocean Mapping activities, and conducting and 
participating in a range of educational activities. In addition, NURP 
and OE support exploration and research projects which further 
conservation of deep corals, including deep corals within the 
Northwestern Hawaiian Islands Marine National Monument. An OE-sponsored 
expedition recently discovered extensive deep-water corals in the 
Olympic Coast National Marine Sanctuary. In direct response to the 
Ocean Action Plan recommendation to ``Research, Survey, and Protect 
Deep-Sea Coral Communities,'' the Office of Ocean Exploration supported 
four expeditions with international partners in FY 2005 and is 
conducting additional activities in FY 2006 and FY 2007.

NOAA's Views on H.R. 3835

    NOAA supports the intent of H.R. 3835 to establish a coordinated 
national ocean exploration program by building on the current 
capability within NOAA. This legislation would elevate the importance 
of science-based ocean exploration, and undersea technology development 
as a vital national activity and strengthen federal efforts to pursue 
and support it. H.R. 3835 recognizes the critical components of NOAA's 
current ocean exploration activities, including the development of new 
undersea technologies, outreach, and education. As part of its 
responsibilities NOAA supports the authorization of interdisciplinary 
exploration to expand our knowledge of the ocean's living and non-
living resources.
    H.R. 3835 advances undersea technology development and furthers 
support for undersea research and exploration by mandating that the 
program ``make available the infrastructure and expertise to service 
the undersea science needs of the academic community.'' The legislation 
supports two of the most successful and unique aspects of NURP: (1) 
harnessing the Nation's extramural, academic expertise to provide 
solutions to NOAA's undersea challenges, and (2) conducting an open, 
competitive process for allocation of resources. It also supports the 
important program areas of undersea science-based education and 
outreach programs to enrich ocean science education and public 
awareness, and the discovery, study, and development of natural 
products from ocean and aquatic systems. The bill also provides a 
sufficient framework and guidance for ensuring that data generated by 
the programs will be made available to a broad spectrum of users, in 
essence supporting the approach that has already been developed within 
NOAA.
    We do recommend that the following changes to the bill be 
considered. While NOAA agrees with the goal of Section 104, to promote 
coordination, such a statutory requirement is unnecessary and would 
duplicate existing efforts. NOAA currently coordinates with other 
federal agencies on ocean exploration activities and plans for the 
future. In addition, the coordination among federal agencies mentioned 
in the bill will increase under the auspices of the new National 
Science and Technology Council's Joint Subcommittee on Ocean Science 
and Technology. The functions of the Joint Subcommittee on Ocean 
Science and Technology include identifying national ocean science and 
technology priorities and facilitating the coordination of 
interdisciplinary ocean research, ocean technology, and infrastructure 
development.
    Section 107 authorizes appropriations to carry out the National 
Ocean Exploration Program described above in increasing amounts from 
$30,500,000 in fiscal year 2006 to $71,917,000 in fiscal year 2015, 
including $33,550,000 for fiscal year 2007. The Administration requests 
that the authorization levels in the bill be consistent with the 
President's FY 2007 Budget Request, which provides $15,128,000 for the 
Ocean Exploration Program.
    In light of the NURP restructuring effort, the language of H.R. 
3835 remains pertinent with few changes. The purpose of NURP remains 
consistent with Title II of the Act, to ``increase scientific knowledge 
essential for the informed management, use and preservation of oceanic, 
coastal and large lake resources through undersea research, 
exploration, education and technology development.'' However, NOAA 
requests that particular named equipment not be enacted into law so 
that the program can best maintain the flexibility required to meet 
rapidly changing technological developments and needs.
    Section 207 authorizes appropriations to carry out the Undersea 
Research Program described above in increasing amounts from $12,500,000 
in fiscal year 2006 to $29,474,000 in fiscal year 2015, including 
$13,750,000 in fiscal year 2007. The Administration requests that the 
authorization levels in the bill be consistent with the President's FY 
2007 Budget Request, which provides $9,152,000 for NURP in FY 2007. In 
addition, the bill includes authorization language and authorization 
for appropriations for the National Technology Institute. The 
Administration requests this language be removed to remain consistent 
with the President's Budget, which does not provide funding for the 
National Technology Institute.
    NOAA also notes that in Section 207, all funding is directed to 
regional centers leaving no funding for administration of the program. 
Program administration should be provided, with a cap of 10 percent of 
appropriated amounts. NOAA supports an undersea research program that 
is national in scope. The Administration requests in the authorization 
of funding that no specific percentage of funding be authorized to 
either the West Coast or East Coast Regional Centers. This change would 
allow NOAA the flexibility to address research and technology needs 
from a national perspective covering our interests in the Atlantic, 
Pacific, Gulf of Mexico, and Great Lakes.

Conclusion

    NOAA supports elevating the importance of ocean exploration based 
on sound scientific research as a vital national activity and endorses 
the strengthening of federal efforts to pursue and support it. H.R. 
3835 recognizes the critical components of NOAA's current ocean 
exploration activities, including the development of new undersea 
technologies, and outreach and education programs. We are encouraged 
that the House of Representatives is considering this legislation to 
promote the importance of ocean exploration, and maintain and 
strengthen our ability to generate new ocean knowledge. The U.S.'s 
strength and leadership in the oceans depends on our nation's ability 
to generate and harness the latest in scientific and technological 
developments and to apply these developments to real world applications 
such as the management of our coastal and marine resources. A national 
ocean exploration and undersea technology development program is vital 
to sustaining the scientific advancement and innovation needed to 
maintain our nation's competitive edge in ocean science and technology, 
as well as to continue to meet the new emerging needs of NOAA's 
mission.

                    Biography for Richard W. Spinrad

    Dr. Spinrad is the Assistant Administrator of the National Oceanic 
and Atmospheric Administration (NOAA) in the Office of Oceanic and 
Atmospheric Research (OAR). He is a native of New York City, and a 
graduate of the Johns Hopkins University (B.A.), Dr. Spinrad has broad 
experience in marine science, technology, operations and policy. During 
his career he has worked in a wide range of positions in government, 
academia, industry and nongovernmental organizations. Spinrad earned an 
M.S. in physical oceanography and a Ph.D. in marine geology from Oregon 
State University. As a research scientist at Bigelow Laboratory for 
Ocean Sciences he developed and published concepts critical to our 
understanding of the relationship between water clarity and marine 
biological productivity. Spinrad served as President of Sea Tech, 
Incorporated during that company's development of several now-standard 
oceanographic sensors. He went on to manage oceanographic research at 
the Office of Naval Research (including serving as the Navy's first 
manager of its ocean optics program), eventually becoming the Division 
Director for all of the Navy's basic and applied research in ocean, 
atmosphere and space modeling and prediction. In 1994 Dr. Spinrad 
became the Executive Director of the Consortium for Oceanographic 
Research and Education (CORE) where he led the development of the 
National Ocean Sciences Bowl for High School Students, and he co-
authored, with Admiral James D. Watkins, ``Oceans 2000: Bridging the 
Millennia,'' which served as the guiding document for the establishment 
of the National Oceanographic Partnership Program (NOPP). In 1999 
Spinrad became the Technical Director to the Oceanographer of the Navy. 
In this position he provided leadership and guidance for the 
development of the U.S. Navy's oceanographic and meteorological 
operational support to Naval forces. Currently, Spinrad serves as the 
United States permanent representative to the Intergovernmental 
Oceanographic Commission of UNESCO, and co-chairs the White House Joint 
Subcommittee on Ocean Science and Technology.
    Rick Spinrad is the President-Elect of The Oceanography Society, 
and served as
    Editor-in-Chief of Oceanography magazine; he has served on numerous 
professional committees of organizations including the National Academy 
of Sciences and the American Meteorological Society. Spinrad also 
served on the faculties of the U.S. Naval Academy and George Mason 
University. He has spent over 300 days at sea conducting research, and 
has published more than 50 scientific articles. Spinrad is the editor 
of a textbook on ocean optics and several special issues of marine 
science journals.
    In 2003 Spinrad was awarded the Department of Navy Distinguished 
Civilian Service Award, the highest civilian award that can be given by 
the Navy Department, and he has received a Presidential Rank Award. Dr. 
Spinrad lives in Falls Church, Virginia with his wife Alanna and two 
beagles.

    Chairman Ehlers. Thank you very much. Mr. Shepard.

STATEMENT OF MR. ANDREW N. SHEPARD, DIRECTOR, SOUTHEASTERN U.S. 
    AND GULF OF MEXICO, NATIONAL UNDERSEA RESEARCH CENTER, 
            UNIVERSITY OF NORTH CAROLINA-WILMINGTON

    Mr. Shepard. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to address H.R. 3835. I have been 
working for NOAA for 28 years, the last 22 for the NOAA 
Undersea Research Program. In that time, the program has 
evolved to better serve the Nation, and now, we are on the 
verge of another major step in this evolution.
    My written testimony provides some history of this change 
and accomplishments. Over the past two decades, the Undersea 
Research Program has supported more scientific diving than any 
other single federal program in the country, matching the 
number of dives performed by all the rest of NOAA combined per 
year. The program has stressed innovation, discovery, and 
capacity building, aiding NOAA in areas it needed our 
specialized help, such as ecosystems science and development of 
ocean observatories.
    For two years, in 1999 and 2000, I commuted from my home in 
North Carolina to NOAA headquarters in Maryland. My major task 
was working with Barbara Moore, the NURP Director, the regional 
NURP centers, and others in NOAA to devise a new ocean 
exploration program. In 2001, with the guidance from the 
Presidential Panel coordinated by Ms. Moore, the Ocean 
Exploration Program was born.
    We in NURP are gratified to see the Ocean Exploration 
Program mature and engage the world in the excitement of ocean 
frontiers. Their risky, discovery-driven science, wherein the 
investigator does not entirely know what they will find at the 
frontier, involves the kind of uncertainty that often counts 
against exploratory work and NSF-style peer review processes, 
unless specifically encouraged.
    Now, it is time to recognize the need for a coordinated 
full spectrum of undersea science applications, from the high 
risk and high reward expeditions and technology developments to 
how these discoveries benefit NOAA's mission. Authorization for 
NURP and OE together is a critical first step.
    Does the bill capitalize on the strengths of the programs 
and address weaknesses? The bill addresses the major weakness 
of the programs, and that is funding, both underfunding and 
instability of funding. We strive to support the top scientists 
and technologists in the Nation conducting relevant, high 
quality science, using advanced technologies. Trying to 
accomplish this goal on a year-to-year uncertain funding cycle 
has been a major weakness. This is now how most federal 
programs that sponsor ocean science and technology support 
their grant projects. Stable funding will allow our science and 
technology developments to mature to useful results, and 
attract the very best experts.
    Does the bill provide appropriate guidance for scope and 
direction? We are pleased with the bill's guidance, which 
recognizes, retains, and builds on the existing strengths of 
the programs. Scientific research, for example, is recognized 
as a critical component of the continuum from exploration to 
management needs, and a driver for technology developments. The 
regional centers and their local partners complement the global 
endeavors of ocean exploration by connecting discoveries to 
research and management done at regional ecosystem scales, the 
heart of NOAA's mission.
    What steps are needed to ensure the rigor of these 
programs, and will the programs be strengthened by the merger? 
Programmatic rigor will be sustained through stable funding and 
business practices, such as credible peer review and outside, 
unbiased advisory panels, as prescribed in the bill. As Chair 
and spokesperson for the NURP Council Center Directors, we 
endorse the merger and its benefits for a stronger, more 
relevant national program.
    How should this merger be accomplished? At the request of 
NOAA management, NURP and OE are now actively engaged in 
planning for a new merged program. The bill lays the groundwork 
for this planning. We especially look forward to the hiring of 
the merged program's director. This position is an opportunity 
to mold the merged program into a fully integrated team.
    In closing, as stated by the President in 1970, in his 
address to Congress regarding NOAA's birth, and still relevant 
today: ``We face a compelling need for exploration and 
development leading to the intelligent use of our marine 
resources.'' Meeting this challenge through authorization of 
these programs is long overdue.
    Thank you for this opportunity to address you.
    [The prepared statement of Mr. Shepard follows:]

                Prepared Statement of Andrew N. Shepard

    Mr. Chairman and Members of the Committee, I am pleased to appear 
before you concerning H.R. 3835 entitled the ``National Exploration 
Program Act'' in Title I, and the ``NOAA Undersea Research Program Act 
of 2005'' in Title II. I am grateful to the Committee for your 
recognition of the importance and need for enhanced support and 
integration of ocean exploration and undersea research. I have been 
working for NOAA since 1978, the last 22 years with the NOAA Undersea 
Research Program. In that time, I have seen the program go through many 
evolutions to better serve the Nation--we are on the verge of another 
such evolution.

Why do we need specialized undersea research programs?

    This a two part question: 1) why do we need to dive; and 2) why are 
dedicated programs needed? Mysteriously to me, we often must justify 
why we endure risk and spend time and money going underwater to study 
oceans. No one doubts the need to study forest ecology or demographics 
of a city by entering them! Oceanography has traditionally relied on 
surface ships, and in recent decades, remote sensing, largely as these 
approaches are traditional or accessible. We are entering a new age for 
ocean science: ecology is not a fringe discipline, but the core of the 
``ecosystem approach to management;'' an electronic age when data and 
information can flow at unprecedented rates using robotics and sensors 
for a vast array of new ocean applications. The Undersea Research 
Program's technology developments and operations have changed the face 
of ocean science; the Long-term Ecological Observatory (LEO15) off New 
Jersey is a prototype coastal ocean observing system that early 
recognized the importance of quality dive support. Nitrox scuba diving 
is now supported by most dive shops and academic dive lockers in the 
country, spurred primarily by NURP development activities.
    Why do we need dedicated programs? Simply stated, NOAA needs 
specialized undersea research programs as diving can be risky and 
complex. Most marine science programs cannot afford to sustain the 
technologies and expertise required to keep up evolving advanced diving 
techniques and technologies, which include robots, submarines, advanced 
scuba, and variety of related sampling tools.

Why have regional presences?

    The practice of regionally located ``centers of expertise'' is 
common in many national programs, for example, Department of Energy's 
National Labs or National Institute of Health Centers of Excellence. 
Their proven success lies partly in economy of scale and common access 
to pools of specialized resources. NURP provides such specialized 
undersea assets on over 11,000 scientific dives per year, involving 
over 200 separate partnering institutes, including 27 U.S. states 
(Attachment). This mostly regional community functions as a vital 
research capacity needed to address many of NOAA's ocean science and 
management priorities. The concept of peer review-driven, regionally 
customized components of a national program encourages quality, 
relevance, productivity, and cost-effectiveness. The NURP refereed 
publication rate mirrors academia as a whole, which is ten times higher 
than government as a whole, at about 10 percent of the cost per 
publication, in part due to the invaluable contributions of teams of 
scientists, technologists, and students.
    Regional presence enhances public outreach and extension. We 
actively participate in region-based management activities, such as the 
fishery management councils, state coastal management forums, and 
sanctuary and reserve advisory boards. It is not just a matter of 
saving money on travel; we offer local knowledge and expertise that is 
hard to sustain through a single national program. We want to sustain 
high-quality useful science, but we also need to make it available to 
managers and the people who live on the coasts.

Why are NURP, OE and NSF all supporting undersea science?

    It is instructive to consider how these programs arose and their 
missions. NSF was established in 1950 as ``the Federal Government's 
only agency dedicated to the support of education and fundamental 
research in all scientific and engineering disciplines. Its mission is 
``to ensure that the United States maintains leadership in scientific 
discovery and the development of new technologies'' (http://
www.nsf.gov/about/history/). By 1954, studies ranging from use of high 
speed computing for oceanography and deep sea bottom cores began. Since 
inception but especially in recent decades, NSF's peer review process 
heavily favors hypothesis-driven, fundamental research. While this 
culture meets the NSF mission, it does not necessarily encourage 
exploratory endeavors or applied research.
    NOAA was established in 1970, pursuant to the Stratton Commission, 
essentially by combining the United States Coast and Geodetic Survey 
(formed in 1807), the Weather Bureau (formed in 1870), and the Bureau 
of Commercial Fisheries (formed in 1871) (http://www.history.noaa.gov/
noaa.html). As stated by President Nixon in his address to Congress 
that accompanied the related Reorganization Plan (Number 4 of 1970), 
``We face a compelling need for exploration and development leading to 
the intelligent use of our marine resources. We must understand the 
nature of these resources, and assure their development without either 
contaminating the marine environment or upsetting its balance.''
    The first undersea science and technology program in NOAA, the 
Manned Undersea Science and Technology program, soon followed in 1971. 
In 1980, the National Research Council endorsed the need for such a 
program in NOAA, but expanded it to become the NURP model with regional 
centers of expertise. For its first 20 years, NURP research spanned the 
spectrum of undersea science from deep exploration to shallow applied 
science, such as coral reef studies. However, as funding was cut 
drastically in 1996, more expensive exploration and new technology 
developments were compromised to sustain the applied scientific dive 
programs most needed by NOAA.
    In 2000, with a mandate from a Presidential Executive Order, a 
special panel led by the NURP Director, Ms. Barbara Moore, produced a 
report, ``Discovering Earth's Final Frontier: A U.S. Strategy for Ocean 
Exploration'' (http://explore.noaa.gov/about/
pres<INF>-</INF>panel<INF>-</INF>report.pdf) that led to creation of 
the NOAA Office of Ocean Exploration (OE).
    NURP endorsed this new program and initially expected that it would 
be integrated with the existing NURP program. I believe that NOAA 
decided to keep the programs separate for a few reasons. At least 
initially, NOAA management wanted to control the types of projects 
supported, as opposed to allowing open peer-review to dictate the 
program direction. NOAA management was also concerned that the 
exploration-based objectives remain distinct from NURP's strategic 
(mission-related) research focus.

Should NURP and OE be merged?

    Times have changed and now NURP and OE should be authorized and 
merged. HR 3835, as presented in Title I and Title II, lays out the 
focus and strengths of each program, and provides a foundation upon 
which NOAA can build a new, coordinated program. OE has established a 
solid community of users, reputation, and need for exploration science, 
and operates in global waters. The program encourages quests and 
queries that might not survive an NSF peer review competition, but 
often are led by NSF-sponsored investigators seeking to venture into 
poorly understood science and regions. However, as a NOAA program, it 
cannot afford to end its investigations by only asking questions. 
NURP's regional Centers conduct research and technology development to 
support NOAA's mission, particularly in the area of ecosystem-based 
management. The Centers have relationships at the regional level, with 
NOAA field offices, academic institutions, managers, and other State- 
and regional-level entities. The Centers also have expertise in 
undersea technologies needed in their regions, and in some cases 
provide those technologies themselves. A closer working partnership 
between OE and NURP will allow the regional programs to follow up on 
the OE explorations with more focused research that will serve NOAA's 
mandate to both understand and manage ocean resources.

Closing Remarks:

    In closing, this authorization is long overdue. The Bill addresses 
the major weakness of the programs--under-funding and instability of 
funding. We seek to support cutting edge science projects using 
advanced technologies, wielded by the top scientists and technologists 
in the Nation. Trying to accomplish this goal on a year-to-year 
uncertain funding cycle has been our major weakness. This is not how 
NIH, ONR, NSF or NASA, for example, support their research grant 
projects. With stable funding we can allow the science and technology 
development projects to mature to useful results, and attract the very 
best experts.
    Previous attempts to authorize have been thwarted by political 
concerns more than need for the programs. H.R. 3835 lays the groundwork 
for a credible, long-lasting, and flexible national program of science, 
technology development, and ocean literacy. With your help and 
guidance, Mr. Chairman and Committee Members, we can clear the final 
hurdles to authorizing these important national programs.
    Thank you for the opportunity to participate in the Committee's 
deliberations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Andrew N. Shepard

CAREER GOAL AND RESEARCH INTERESTS

    Utilize technical, academic and research background to conduct 
scientific undersea research, and generate funds for marine research 
and education. Areas of scientific interest and expertise include: 
benthic ecology of off-shore reef ecosystems, fishing gear technology; 
impacts of fishing gear on seafloor habitats; applications of 
Information Technology for organizing and presenting research results.

EXPERIENCE HIGHLIGHTS

    Director, NURC at UNCW (1988-Present). Previous positions as Center 
Science Director (1988-1999), Center Associate Director (2000-2004). 
Program objectives: provide advanced undersea research systems to 
regional scientists for investigations in support of NOAA's mission--
health of ocean resources and environments. Primarily responsible for: 
1) administration, 2) program development and 3) oceanographic 
research: Supervisor: Dr. Dan Baden Director, UNCW Center for Marine 
Science (910-962-2308, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ceacafaaaba08ebba0adb9e0abaabb">[email&#160;protected]</a>).

Other relevant positions related to career goal:

        <bullet>  Program Development Coordinator--Coastal Ocean 
        Monitoring and Research Program (2001-2002): Ocean observing 
        system and research program off North and South Carolina 
        coasts. Responsibilities included development of data 
        management system, development of co-funding opportunities, 
        creation of program progress reports.

        <bullet>  Program Officer--National Undersea Research Program 
        (1999-2001): Headquarters for National Undersea Research 
        Centers; 18-month contract, on leave of absence from UNCW; 
        responsibilities included grants and contracts management, 
        development of NURP management information system and web site, 
        development of future funding initiatives, and strategic 
        planning.

        <bullet>  Deputy Science Director--NURP regional center for New 
        England and the Great Lakes (1984-1988): Responsibilities 
        included direction of Center's Fishing Gear Evaluation Program, 
        administrative and technical support (computers and LAN 
        management), center progress reports; diving support (e.g., ROV 
        pilot, scuba) for field center research projects.

        <bullet>  NOAA Commissioned Officer, Lieutenant (Navy rank) 
        (1978-1984): Assignments included: Manned Undersea Research and 
        Technology Program, Woods Hole, MA; Field Operations Officer, 
        NOAA ship Mt. Mitchell overseeing hydrographic (bathymetric 
        charting) and oceanographic research missions.

EDUCATION

1975-1977:  University of Massachusetts, Amherst, MA; Master of Science 
        Degree in Marine Science

1971-1975:  Bates College, Lewiston, ME; Bachelor of Science Degree in 
        Biology

SPECIALIZED TRAINING, CERTIFICATIONS AND SKILLS

        <bullet>  Navigation: Visual, Celestial, Electronic (SatNav, 
        Loran, GPS)

        <bullet>  Surveying: Triangulation, Geodesy, Horizontal 
        Leveling

        <bullet>  Diving: Surface Supplied, divemaster, decompression, 
        saturation, mixed gas technical (to 70 meters), Nitrox, dry 
        suit; submersible pilot (DeepWorker 2000); ROV pilot (DOE 
        Phantoms, Benthos Minirover), Diver Medical Technician (EMT 
        plus Recompression Chamber Operation, Diving Medicine, and 
        Accident Management, Oxygen Administration)

        <bullet>  Statistics: ANOVA, COANOVA, Non-parametrics, 
        Graphical Interpretation; SAS, SPSS, Minitab

        <bullet>  Computers: C++ Programming, HTML/Active Server Pages/
        Web Page creation, Relational Database Management, Geographic 
        Information System (ArcView 3.3)

CURRENT ORGANIZATIONS & COMMITTEES

        <bullet>  Governor appointee, Advisory Council, North Carolina 
        Museum of Natural Science (2004-present)

        <bullet>  Co-Chair, Executive Board of Advisors, NSF Center for 
        Ocean Science Education Excellence-Southeast Region COSEE-SE 
        (2002-present)

        <bullet>  South Atlantic Fishery Management Council, Coral 
        Advisory Panel (2005-present)

        <bullet>  NOAA Deep Sea Coral Planning Team (2002-present)

        <bullet>  Dive Safety Control Board, UNCW

RECENT PUBLICATIONS

Shepard, A.N. and A.J. McCurdy. 2003. The Link Project: Partnerships to 
        Promote Sea and Space Exploration and Technology Development. 
        Sea Technology 44(7):47-52.

Koenig, C.C., A.N. Shepard, J.K. Reed, F.C. Coleman, S.D. Brooke, J. 
        Brusher, and K.M. Scanlon. 2005. Habitat and fish populations 
        in the deep-sea Oculina coral Ecosystem of the western 
        Atlantic. American Fisheries Society Symposium 41:795-805.

Reed, J.K., A. Shepard, C. Koenig, K. Scanlon, and G. Gilmore. 2005. 
        Mapping, habitat characterization, and fish surveys of the 
        deep-water Oculina coral reef Marine Protected Area: a review 
        of historical and current research. Proceedings of Second 
        International Symposium on Deep Sea Corals, Sept. 9-12, 2003, 
        Erlangen, Germany. Springer-Verlag.

Harter, S. and A.N. Shepard. In press. Deep sea coral ecosystem 
        monitoring: case study of the Oculina Bank marine reserve. 
        Bull. Mar. Sci.

Reed, J.K., C.C. Koenig, and A.N. Shepard. In press. Effects of Bottom 
        Trawling on a Deep-Water Oculina Coral Ecosystem. Bull. Mar. 
        Sci.

    Chairman Ehlers. And Dr. McNutt.

    STATEMENT OF DR. MARCIA K. MCNUTT, PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, MONTEREY BAY AQUARIUM RESEARCH INSTITUTE

    Dr. McNutt. Good afternoon, Chairman Ehlers and 
distinguished Members of the Subcommittee. I am Marcia McNutt, 
Director of MBARI, a small, private, nonprofit research 
institute that was founded and funded by David Packard to be a 
technology incubator for the ocean research community.
    I also chaired the 32-member President's Panel, which in 
just 60 days, convened, deliberated, and completed a succinct 
report laying out the motivation, objectives, priorities, and 
essential elements of a comprehensive national program in ocean 
exploration. This report led to the establishment of NOAA's OE 
program, and continues to guide it to this day.
    Let me briefly explain the importance of NOAA's OE program 
to the Nation, and also to NOAA. With a healthy and vigorous 
ocean exploration program, the Nation benefits from policy-
makers, such as yourselves, and citizens so inspired by the 
wonders and mysteries of the ocean that they insist on the 
acquisition and application of state of the art knowledge and 
understanding of the ocean that enriches us both economically 
and spiritually.
    Ocean exploration supports NOAA's mission by making new and 
unexpected discoveries that overthrow reigning paradigms, 
leading to new management strategies that actually work. Ocean 
exploration is distinguished from research by the fact that 
exploration leads to questions, research leads to answers. 
Often, novel discoveries are made accidentally in the process 
of performing hypothesis-driven research, but with a purposeful 
exploration program, those discoveries are more likely to be 
appreciate for what they are documented, and followed-up.
    For example, one of the greatest surprises in oceanography 
in the 20th century was the discovery of the hot-vent 
communities, the deep sea oases that thrive in seawater 
geothermally heated to several hundred degrees centigrade. This 
entire new ecosystem led to huge new possibilities for how life 
might be sustained elsewhere in the universe. This discovery 
led to new questions. What is their energy source? How do 
proteins fold at such high temperatures? We would not even know 
enough to have asked these questions had this discovery not 
been made, and in fact, it almost wasn't.
    The shipboard party involved was entirely geologists and 
geophysicists. There wasn't a single biologist on board that 
ship to witness what was to become the most important discovery 
made in marine biology ever. The shipboard party lacked such 
basic biological supplies that the geophysicists had to 
sacrifice all of their vodka to preserve the novel specimens 
they collected.
    Such discoveries don't need to be rare, accidental, or 
potentially unappreciated, with a strong, vigorous, and 
systematic ocean exploration program. This graphic that is up 
here shows how NOAA's OE program might ideally relate to the 
broader ocean research agenda and to the NURP program.
    New discoveries are made by either looking in new places, 
the left side of the upper box, or by deploying new tools, the 
right side of the box, which see the ocean in new dimensions. 
Now, the strength of a federal organization like NOAA 
undertaking this program is that they can be systematic about 
going to new places, the left side of the box. NOAA's weakness 
in this undertaking is the right side of the box. They are not 
known for their prowess in technology development. That is a 
strength of H.R. 3835, in that it creates this interagency 
taskforce, which brings in ONR, NASA, and other agencies, which 
can help contribute new technology to ocean exploration.
    The discoveries lead to new questions, the white arrow 
going down, and some of these questions will be relevant to 
NOAA's mission. Others will be relevant to the missions of 
other agencies. Again, the interagency taskforce in H.R. 3835 
will facilitate the sharing of discoveries with other parties 
that are more likely to follow up on them. The National Science 
Foundation should be added explicitly to that taskforce, as it 
is mostly likely that NSF will support the early research 
resulting from exploration discoveries, until such time as 
their relevance to other agency missions or commercial 
organizations is clear.
    For those discoveries deemed relevant to NOAA's mission, 
the NURP program can serve as something of a halfway house, 
serving as a bridge between OE's discoveries and the eventual 
incorporation and application of that knowledge and 
understanding within NOAA's line agencies.
    Currently, I see two challenges to NOAA's OE program, and 
the first isn't money. The first is that ocean exploration is 
not part of NOAA's mission. Exploration is part of NASA's 
mission. NASA is our space agency. Why isn't it part of NOAA's 
mission, if NOAA is our oceans agency? I would like to see, 
under section 103, that the NOAA Administrator be advised to 
add exploration to NOAA's mission.
    I do see that this bill goes in the right direction, in 
terms of bringing critical funding to OE's budget, but just in 
comparison, my own institution spends $30 million a year 
exploring Monterey Bay. It is a big ocean out there, and we 
need more money for ocean exploration.
    I would also like to comment on the potential merger. 
Strengths of the merger would be in facilitating the transfer 
of ocean exploration discoveries to followup within NOAA 
through the NURP program, but I also see challenges. An ideal 
OE program undertakes multi-disciplinary voyages of discovery 
for the benefit of all ocean sciences. NURP is intended to be 
more targeted to serve NOAA's line agencies in their basic 
science needs.
    OE's explorers will not necessarily be the same people who 
benefit from the discoveries, whereas NURP investigators fully 
expect to be the ones who reap the scientific rewards. OE must 
be systematic in its program, whereas NURP has traditionally 
supported a portfolio of disconnected projects. OE will be most 
successful if it has strong central management to ensure common 
standards, professional data management, and extensive 
research, whereas NURP has employed a very distributed 
management system.
    I think that this merger could be successful, but in the 
arrangement that I show here, where NURP acts to follow up on 
OE discoveries, and that also benefits OE by allowing OE to 
shed the burden of capitalizing on its discoveries deemed 
relevant to NOAA's line agencies, such that OE can remain true 
to its focus on pure exploration for the benefit of all ocean 
sciences.
    Thank you for this opportunity to comment. I hope my views 
are of some help. Thank you.
    [The prepared statement of Dr. McNutt follows:]

                 Prepared Statement of Marcia K. McNutt

    Good afternoon, Chairman Ehlers, and distinguished Members of the 
Subcommittee on Environment, Technology, and Standards. I am Marcia 
McNutt, director of the Monterey Bay Aquarium Research Institute 
(MBARI) in California. MBARI is a small, private, non-profit research 
laboratory founded by David Packard to serve as a technology incubator 
for the ocean research community. I am pleased to be here today to 
provide my views on two of the National Ocean and Atmospheric 
Administration's (NOAA's) programs, Ocean Exploration (OE) and the 
National Undersea Research Program (NURP), and more specifically on 
pending legislation H.R. 3835.
    First, allow me to preface my remarks with the statement that I 
have nothing to gain personally from this legislation. My own research 
is not now and never has been funded by NOAA, and only an insignificant 
amount of my institution's entire budget is derived from NOAA programs. 
My motivation in addressing you today is simply to do what is right for 
the Nation and for the oceans.
    Next, I will explain my involvement with the Ocean Exploration and 
NURP programs. I chaired the 32-member President's Panel on Ocean 
Exploration which, in just 60 days, convened, deliberated, and 
completed a succinct report laying out the motivation, objectives, 
priorities, and essential elements of a comprehensive national program. 
This report led to the establishment of the NOAA exploration program 
and continues to guide it to this day. In addition, my institution has 
had a long-standing agreement with the West Coast office of NURP 
whereby NURP-funded investigators get access to my institution's unique 
ships and remotely operated vehicles for undersea research, neither of 
which are ordinarily available to outside users. This arrangement not 
only provides access to state-of-the-art capabilities for academic and 
NOAA researchers, but also provides greater external visibility and 
demand for MBARI's technology and marine assets. The NURP program, 
while having hardly any impact on MBARI's budget, is an important 
factor in our technology transfer strategy.
    Let me briefly explain the importance of NOAA's Ocean Exploration 
program to the Nation and to NOAA. With a healthy and vigorous Ocean 
Exploration program, the Nation benefits from policy makers, such as 
yourselves, and citizens so inspired by the wonders and mysteries of 
the ocean that they insist on the acquisition and application of state 
of the art knowledge and understanding of the oceans for informed ocean 
management. Ocean Exploration supports NOAA's mission by exploring the 
ocean in all dimensions to make new and unexpected discoveries that 
overthrow reigning paradigms.
    Ocean exploration is distinguished from research by the fact that 
exploration leads to questions, while research leads to answers. When 
one undertakes exploration, it is without any preconceived notion of 
what one might find or who might benefit from the discoveries. 
Research, on the other hand, is undertaken to test a certain 
hypothesis, with the clear understanding of the benefits of either 
supporting or refuting the hypothesis under consideration. Often novel 
discoveries are made accidentally in the process of performing 
hypothesis-driven research, but with a purposeful exploration program, 
those discoveries are more likely to be appreciated for what they are, 
properly documented, and followed-up.
    Here is a concrete example. One of the greatest surprises in 
oceanography in the 20th century was the discovery of the hot-vent 
communities, deep-sea oases that thrive in sea water geothermally 
heated to several hundred degrees centigrade. These animals form an 
entire ecosystem completely independent of the sun's energy, and their 
existence opens up huge new possibilities for how life might be 
sustained elsewhere in the universe. This discovery led to a host of 
new research questions. What is the energy source for this new style of 
community? How do proteins fold at such high temperatures? By what 
reproductive strategy do deep-sea vent organisms manage to find and 
colonize new, isolated vent systems as the old ones die? These are 
important questions, but ones that we would not know enough to even ask 
had the discovery not happened. And it almost didn't. The shipboard 
party involved was entirely geologists and geophysicists. There wasn't 
a single biologist on board to appreciate the significance of what was 
to become the most important discovery in marine biology. Ever. Lacking 
basic biological supplies, the geophysicists had to sacrifice all of 
their vodka to preserve the novel specimens they collected.
    Such discoveries don't need to be rare, accidental, or potentially 
unappreciated with a strong, vigorous, and systematic ocean exploration 
program. I created a graphic (Figure 1) to show how NOAA's OE program 
might ideally relate to the broader ocean research agenda and to the 
NURP program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The upper box is meant to represent NOAA's Ocean Exploration 
program. New discoveries are made by exploring new places, and/or by 
deploying new tools which ``see'' the ocean in new dimensions. With 
roughly 95 percent of the ocean still unexplored, and new tools that 
image the physics, chemistry, biology, and geology of the ocean at all 
scales being developed constantly, the opportunities for discovery are 
virtually limitless. The greatest strength of having a federal 
organization such as NOAA leading this effort is the fact that it can 
undertake a systematic, multi-disciplinary exploration of the ocean. 
However, if I had to identify NOAA's weakness in terms of being the 
lead agency for this effort, it is the fact that NOAA is not widely 
known for its prowess in developing new technology. For this reason, I 
support the provision in H.R. 3835 that establishes an interagency task 
force which includes NASA and ONR to facilitate the transfer of new 
exploration technology to the program.
    Those discoveries lead to new research questions. In the case of a 
NOAA Ocean Exploration program, some of the research questions will be 
quite relevant to NOAA's mission, while others will need to be pursued 
by other agencies, such as the National Science Foundation, Navy, or 
the National Institutes of Health. Again, the interagency task force 
established in H.R. 3835 will facilitate the sharing of discoveries 
with other parties who would be more likely to follow them up. 
Definitely the National Science Foundation should be added explicitly 
to this list, as it is most likely that NSF will support the early 
research resulting from exploration discoveries until such time as 
their relevance to other agency missions or commercial organizations is 
clear.
    For those discoveries that are deemed relevant to NOAA's mission, 
the NURP program provides an excellent mechanism for research follow-
up. The NURP program is peer reviewed, so that only the most exciting 
hypotheses proposed by the top researchers are pursued, and it provides 
access to the necessary deep-sea assets, such as manned submarine, 
remotely operated vehicles, and autonomous underwater vehicles. The 
NURP program can be considered something of a half-way house, serving 
as a bridge between OE's discoveries and eventual incorporation and 
application of the scientific knowledge and understanding within NOAA's 
line agencies.
    NOAA's OE program is the only ocean exploration, sensu stricto, 
accomplished with federal funds. The only other organizations that 
undertake ocean exploration for the sake of unfettered discovery are my 
own institution, using funds we receive from the David and Lucile 
Packard Foundation, and Bob Ballard's Institute for Exploration. The 
NOAA OE program, thanks to some inspired and dedicated leadership 
within NOAA, is trying to build a first-class program. But they face 
two challenges. One is that, to date, exploration is not specifically 
in NOAA's mission statement. Exploration is part of NASA's mission, and 
NASA is the Nation's space agency. Why shouldn't exploration be part of 
NOAA's mission, if NOAA is our oceans agency? It certainly isn't 
because we have already found everything that needs to be discovered! 
In the most recently released NOAA Strategic Plan, the words ``ocean 
exploration'' did not appear even once. I believe it would very much 
help the situation if under Section 103 in H.R. 3835, the NOAA 
Administrator was advised to add exploration to NOAA's mission. A 
second problem is the lack of sufficient funding for the program. The 
amount of funds appropriate for OE is equivalent to the round-off error 
in NASA's budget. My own institution spends about $30 M/year, twice 
OE's budget, exploring just Monterey Bay. It is a big ocean out there, 
and H.R. 3835 does a credible job at ramping up the OE budget 
authorization.
    I was also asked to specifically comment on a potential merger of 
OE and NURP. Strengths of a merger would be in facilitating the 
transfer of exploration discoveries to research follow-up, as diagramed 
in Figure 1 above, and in turn making deep sea assets available to the 
Ocean Exploration program through mechanisms already in place with 
NURP. However, I also see many challenges. An ideal OE program 
undertakes multi-disciplinary voyages of discovery for the benefit of 
all of ocean sciences. NURP is intended to be more targeted in the 
projects it undertakes so as to serve the needs of NOAA's line agencies 
for basic scientific understanding. OE's ``explorers'' will not 
necessarily be the same people who will benefit from the discoveries. 
NURP investigators fully expect to be the ones who reap the scientific 
rewards from their efforts. OE must be systematic in its program in 
order to make any progress, whereas NURP has traditionally supported a 
portfolio of disconnected projects. OE will be most successful if there 
is strong central management to ensure common standards, professional 
data management, and extensive outreach, whereas NURP has employed a 
very distributed management system. If OE is managed like NURP or as a 
component of NURP, it would be a disaster. However, I believe that a 
relationship as I identified above in Figure 1 could be successful: 
NURP acting to follow up with OE discoveries. In that arrangement, OE 
sheds the burden of capitalizing on its discoveries deemed relevant to 
the missions of NOAA's line agencies, and can remain true to its focus 
on pure exploration for the benefit of all ocean sciences.
    Thank you for this opportunity to comment, and I hope my views are 
of some help in your deliberations.

                     Biography for Marcia K. McNutt

2/19/52  Born, Minneapolis, Minnesota

6/70  Graduated from high school, Northrop Collegiate School, 
        Minneapolis, Minnesota.

5/73  B.A. in Physics from Colorado College, Colorado Springs, 
        Colorado.

1/78  Ph.D. in Earth Sciences from Scripps Institution of Oceanography, 
        La Jolla, California. Dissertation title: Continental and 
        Oceanic Isostasy.

Awards and Fellowships

1970--Class valedictorian, recipient of awards for mathematics, science 
        and French.

1970-1971--National Merit Scholarship

1973--Phi Beta Kappa, summa cum laude

1973-1976--National Science Foundation Graduate Fellowship

1977-1978--University of California Dissertation Fellowship

1984, 1993--Journal of Geophysical Research Editor's Citation for 
        Excellence in Refereeing

1985--Graduate Student Council Award for Teaching

1985-1986--Mary Ingraham Bunting Fellow, Radcliffe College

1988--Macelwane Award, American Geophysical Union

1988--Fellowship, American Geophysical Union

1988--Doctor of Science, honoris causa, Colorado College

1989-1990--NSF Visiting Professorship for Women, Lamont-Doherty 
        Geological Observatory of Columbia University

1991-1997--Griswold Professor of Geophysics

1993--Outstanding Alumni Award, The Blake Schools, Minneapolis

1995--Capital Science Lecturer, Carnegie Institution

1996-1997--Phi Beta Kappa Visiting Scholar

1996--MIT School of Science Graduate Teaching Prize

1998--Fellowship, Geological Society of America

1997--Science and Technology Fellow, CSU Monterey Bay

1998--Fellowship, American Association for the Advancement of Science

1999--Member, American Academy of Arts and Sciences

1998--Sanctuary Reflections Award, Special Recognition Category, 
        Monterey Bay National Marine Sanctuary

2002--Elected member American Philosophical Society

2003--ARCS Scientist of the Year

2004--National Associate, National Academy of Science

2004--Alumna of the Year, University of California, San Diego

2004--Doctor of Science, honoris causa, University of Minnesota

2005--Elected member, National Academy of Sciences

Post-graduate Employment

1/78-6/78--Postdoctoral Research Associate, Scripps Institution of 
        Oceanography.

6/78-7/79--Visiting Assistant Professor, University of Minnesota, 
        Minneapolis.

6/79-6/82--Geophysicist, Branch of Tectonophysics, Office of Earthquake 
        Studies, U.S. Geological Survey, Menlo Park, California.

7/82-7/86--Assistant Professor of Geophysics, Department of Earth, 
        Atmospheric, and Planetary Sciences, Massachusetts Institute of 
        Technology.

7/86--Associate Professor of Geophysics, EAPS, MIT.

7/89-3/98--Professor of Geophysics, EAPS, MIT.

7/93-7/95--Associate Director, MIT SeaGrant College Program.

7/95-8/97--Director, MIT/WHOI Joint Program in Oceanography and Applied 
        Ocean Science and Engineering.

9/97-present--President/CEO Monterey Bay Aquarium Research Institute.

6/98-present--Professor, Department of Earth Science, UC-Santa Cruz (on 
        leave).

10/98-present--Professor of Geophysics, Stanford University.

Special Training

8/74--Completed U.S. Navy UDT and Seal Team training course in 
        underwater demolition and explosives handling. Also, NAUI 
        certified SCUBA diver and Red Cross Water Safety Instructor.

Sea Experience

Participant on 14 oceanographic expeditions on ships from Scripps, 
        Woods Hole, Oregon State University, and Columbia University.

Co-chief scientist on Crossgrain 2 marine geophysical expedition to the 
        Marquesas Islands, April 1987.

Co-chief scientist on the R/V Maurice Ewing EW9103 multi-channel 
        seismic expedition to French Polynesia, May, 1991.

Chief scientist on the R/V Maurice Ewing EW9106 marine geophysical 
        survey of the Marquesas Fracture Zone, September-October, 1991.

Chief scientist on the R/V Maurice Ewing EW9204 ocean bottom 
        seismometer experiment in the Marquesas Islands, May, 1992.

Co-chief scientist on BARGE, a multi-channel seismic survey on Lake 
        Mead of the Colorado Plateau--Basin and Range breakaway zone, 
        March, 1994.

Chief scientist on R/V Maurice Ewing EW9602, multi-channel seismic 
        survey of the Austral Islands, March-May, 1996.

Chief scientist on R/V Roger Revelle expedition to measure hydrothermal 
        heat flux in the Hawaiian Islands, August-September, 1997.

Professional Societies

American Geophysical Union (Fellow)

American Association for the Advancement of Science (Fellow)

Geological Society of America (Fellow)

Other Activities

Past

Journal of Geophysical Research Associate Editor, 1980-1983

Journal of Geophysical Research guest editor, 1983

Pure and Applied Geophysics, editorial board, 1987-1988

Member, IUGG special studies group on density and stress differences 
        within the Earth, 1980-1983

Member, IUGG special studies group on geodynamics of mountain belts, 
        1983-1987

Member, NSF panel for graduate fellowships in Earth Sciences, 1985, 
        1986, 1987 (Chairman 1988, 1989, 1990)

NSF Ocean Sciences, Panelist, 1986-1988, 1990

NSF Science and Technology Centers Panelist, 1989

Member NASA science steering group for the Geopotential Research 
        Mission 1978-1988.

Chairman, Science Working Group, NASA Gradiometer Study Team, 1987

Panel Co-Chairman, NASA Coolfont Workshop, 1989

Member, Committee on Geodesy, National Research Council, 1982-1984

Member, Geodynamics Committee, National Research Council, 1984-1987

Member, Earth Science Committee, National Research Council, 1987-1989

Member, AGU Tectonophysics nominating committee, 1983, 1985

Member, AGU Budget and Finance Committee, 1986-1988

Chairman, AGU Journals Board, 1988-1990

Chairman, Tectonophysics Fellows Committee, AGU, 1990, 1992

Chairman, AGU Publications Committee, 1990-1992

Member, Tectonics editor search committee, 1983

Member, Lithosphere Panel, Ocean Drilling Program, 1986-1988

Member, National Earthquake Hazard Reduction Program Advisory 
        Committee, 1991

Chairman, AGU Publications Committee, 1990-1992

Chairman, Joint Committee for Marine Geology and Geophysics, MIT/WHOI 
        Joint Program, 1984-1988, 1991-1995

President, special study group ``Transmission of Stress and Geodynamic 
        Implication,'' International Association of Geodesy, 1987-1991

Tectonophysics editorial board, 1982-1991

Member, Atolls and Guyots Detailed Planning Group, Ocean Drilling 
        Program, 1991

Member, Performance Evaluation Committee, Ocean Drilling Program, 1991

Member, Organizing Committee for the Frontiers of Science Symposium, 
        National Academy of Sciences, 1991-1992, 1994

Chairman, Visiting Committee, Geological Sciences Department, U of 
        Arizona, 1992

Member, Advisory Committee for Earth Sciences, National Science 
        Foundation, 1990-1993

Member, NASA Earth Science and Applications Division Advisory 
        Subcommittee, 1990-1993

Member, Advisory Structure Review Committee, Ocean Drilling Program, 
        1992-1993

Chairman, Organizing Committee for the Frontiers of Science Symposium, 
        National Academy of Sciences, 1993

Chairman, Visiting Committee, Scripps Institution of Oceanography, 1993

SEI (Study of the Earth's Interior) Committee, American Geophysical 
        Union, 1992-1994

Audit and Legal Affaris Committee, American Geophysical Union, 1992-
        1994

Nominating Committee, American Geophysical Union, 1992-1994

Member, Board on Earth Sciences and Resources, National Research 
        Council, 1994

Member, Committee on Geophysical and Environmental Data, National 
        Research Council, 1994

Member, National Academy of Sciences Television Advisory Committee, 
        1994

Member, Committee to Study the Criteria for Federal Support for 
        Research and Development (Press Committee), 1995

President, Tectonophysics section, American Geophysical Union, 1992-
        1994

Chair, Audit and Legal Affaris Committee, American Geophysical Union, 
        1994-1996

Member, Organizing Committee for the German-American Frontiers of 
        Science Symposium, 1995, 1996

Chair, External Review Committee, Department of Geological Sciences, UC 
        Santa Barbara, 1997

Member, External Review Committee, Department of Geology and 
        Geophysics, U of Minnesota, 1997

Member, Lincoln Lab Advisory Board, 1994-1997

Member, National Medal of Science Committee, 1995-1997

Member, New England Aquarium Advisory Board, 1995-1997

Co-Chair, NSF-OCE Workshop on the Future of Marine Geosciences, 1995-
        1998

Vice-Chair, Advisory Committee for Geosciences, National Science 
        Foundation, 1996-1998

Chair, Macelwane Award Committee, American Geophysical Union, 1996-1998

Co-Chair, Chinese-American Frontiers of Science Symposium, August, 1998

Member, Government-University-Industry-Research-Roundtable committee on 
        Stress in Universities, 1995-1998

Member, NRC committee on the Science of Earthquakes, 1996-1999

Member, NRC Committee on 50 Years of Ocean Sciences at NSF, 1998

Member, ODP Executive Committee for Drilling Opportunities in the 21st 
        Century, 1998-1999

Member, German-American Academic Council, 1994-1999

Member, Ocean Research Advisory Panel, National Ocean Partnership 
        Program, 2000-2001

Member, Ocean Science Synthesis Committee, NSF, 1998-2001

Chair, NOAA Exploration Panel, 2000-2001

President, American Geophysical Union, 2000-2002

Member, Exploration of the Seas Committee, National Research Council, 
        2001-2004

Member, Review Committee for the Division on Earth and Life Sciences, 
        National Academy of Sciences, 2003-2004

Member, Jackson School Vision Committee, University of Texas at Austin, 
        2003-2004

Past President, American Geophysical Union, 2002-2004

Member, Visiting Committee, Department of Ocean Engineering, MIT, 1999-
        2004

Chair, Ocean Research Advisory Panel, National Ocean Partnership 
        Program, 2001-2005

Present

Member, Visiting Committee, Department of Mechanical Engineering, MIT, 
        2005-present

Whale Conservation Fund Advisory Council, 2004-present

Member, Visiting Committee, School of Earth Sciences, Stanford 
        University, 1999-present

Chair, Visiting Committee, Department of Earth and Planetary Science, 
        Harvard University, 2002-present

Member, External Review Committee for Marine Science Institute, 
        University of California at Santa Barbara, 2006

Member, Advisory Board, Winchell School of Earth Sciences, University 
        of Minnesota, 2005-present

Member, Board of Directors, Monterey Bay Aquarium, 1998-present

Member, Schlumberger Technical Advisory Committee, 2000-present

Member, Editorial Advisory Committee, Science magazine, 2001-present

Chair, Monterey Bay Crescent Ocean Research Consortium, 2000-2006

Chair-elect, Board of Directors, Joint Oceanographic Institutions

Member, Ocean Council, joint task force for Joint Oceanographic 
        Institutions and the Consortium for Ocean Research and 
        Education

Member, Class membership committee, National Academy of Sciences

Reviewer for JGR, GJRAS, Tectonophysics, Nature, Tectonics, Journal of 
        Geophysics, EPSL, PEPI, GRL, RGSP, PAGEOPH, NSF, NASA, LPRI, 
        NERC

Invited Lectures

    Caltech (1978, 1980, 1997), U. of Minnesota (1978, 1996, 125th 
Anniversary Lecturer, 1999, IT Distinguished Woman Lecturer, 2003, 
2005), Harvard (1978, 1984), U.C. Santa Barbara (1978, 1981), Cornell 
University (1978, 1983), U. of Michigan (1979, 1989, 1994), Dalhousie 
(1979), Lamont-Doherty (1980, 1985, 1986, 1989, 1995; 50th Anniversary 
Lecture 1999), Stanford (1980, 1984, 1998, 2003), Sandia Labs (1981), 
MIT (1981; Wallace Lecture: 1998, 2005), Woods Hole (1981, 1985, 1987, 
1989), UC Berkeley (1982; 1989; 1995; 1998), UCLA (1982, 1989), Society 
of Engineering Science (1982), Washington University at St. Louis 
(1982), Brown (1983, 1989, 1994), Yale (1983, 1985, 1995), Scripps 
Institution of Oceanography (80th Anniversary Lecturer: 1983; 1995, 
2002), 27th International Geological Congress, Moscow (1984), Institute 
of Physics of the Earth, Moscow (1984, 1987), U. of Wyoming (1985, 
Dedication of Geosciences Building: 1998), Colorado College (1985, 
1988, 2003), SUNY Stony Brook (1985), IUGG Workshop in Zurich (1985), 
U. Lowell (1986), University of Rhode Island (1986, 1994), Radcliffe 
Summer Science Program (1986, 1987), WHOI College Teachers Workshop 
(1987), Geological Society of Washington (1988, 2005), IGPP Los Alamos 
(1989), IPG, Paris (1989, 1996), Institute of Computational Geophysics, 
Moscow (1989), Institute of Petroleum Research, Tel Aviv (1989), York 
University (1990), University of North Carolina, Chapel Hill (1990), 
Northwestern (1990), Penn State (1990), University of New Mexico 
(1991), University of Texas at Austin (1991), Boston University (1992), 
Duke University (1992), UMass, Amherst (1992, 1996), U of Washington 
(1993), Princeton University (1993), National Academy of Sciences 
(1994), Keystone Scientist to Scientist Colloquium (1994), Berlin 
Symposium on Issues Facing the German-American Academic Council (1994), 
U of Toronto (1994; J. Tuzo Wilson Lecture, 2004), MacMaster University 
(1994), University of Maine (1995), Workshop on Science Education, 
University of Iowa (1995, 1996), Amherst College (1996), Smith College 
(1996), University of Brest, France (1996), Western Maryland College 
(1996), Hiram College (1997), Carnegie-Mellon University (1997), St. 
Lawrence University (1997), Birmingham-Southern College (1997), 
University of Wisconsin at Milwaukee (1997), Ripon College (1997), 
College of St. Catherine (1997), University of Hawaii (1998), UC Santa 
Cruz (1998), Augsburg College (Sverdrup Lectures: 1998), Arizona State 
Univeristy (1998), AAAS (1998, 1999), Library of Congress (1999), U.S. 
Geological Survey (2000), Purdue University (Crough Lecture, 2000), 
White House Millenium Matinee (2000), Trinity University (2000), 
University of Utah (2001), ACM1 Computer Conference (Keynote Speaker, 
2001), Revelle Lecture (NAS, 2001), American Academy of Arts and 
Sciences (2001), Oceans 2001 (Keynote lecture, 2001), University of 
South Carolina (Convocation Speaker, 2002), Ocean's Symposium, 
Anchorage, AL (2002); JAMESTEC 30th Anniversary Symposium (2002), 
Oregon State University (Condon Lecture: 2002, 2005), University of 
California, San Diego (2002), Illinois Math and Science Academy (2003), 
ARCS Foundation (2003), Women in Science and Engineering, UCSD (2003), 
Nuclear and Space Radiation Effects keynote speaker (2003), Division of 
Planetary Sciences, American Astronomical Society plenary speaker 
(2003), Barrow Arctic Science Consortium public lecture (2003), 
Portuguese-American Foundation Annual Lecture in Marine Sciences, 
Lisbon (2004), 9th Circuit Court Judicial Conference (2004); Marin 
County Women Lawyers (2004), MIT-ME dept (2005), Santa Fe Institute 
(2005), Naval Postgraduate School (2005), PopTech (2005), Space Mission 
Challenges (2006).

PEER REVIEWED PUBLICATIONS

 1.  McNutt, M.K. and R.L. Parker, Isostasy in Australia and the 
evolution of the compensation mechanism, Science 199, 773-775, 1978.

 2.  McNutt, M.K. and H.W. Menard, Lithospheric flexure and uplifted 
atolls, J. Geophys. Res. 83, 1206-1212, 1978.

 3.  Shih, J.S.F., T. Atwater, and M.K. McNutt, A near-bottom 
geophysical traverse of the Reykjanes Ridge, Earth Planet. Sci. Lett. 
39, 75-83, 1978.

 4.  McNutt, M.K., Continental and Oceanic Isostasy, Ph.D. thesis, 
University of California, San Diego, California, 1978.

 5.  McNutt, M.K. and H.W. Menard, Reply to comments on `Lithospheric 
flexure and uplifted atolls' by R.D. Jarrard and D.L. Turner, J. 
Geophys. Res. 84, 5695-5697, 1979.

 6.  McNutt, M.K., Compensation of oceanic topography: An application 
of the response function technique to the Surveyor area, J. Geophys. 
Res. 84, 7589-7598, 1979.

 7.  McNutt, M.K. and H.W. Menard, Reply to comments on `Lithospheric 
flexure and uplifted atolls' by H.T. Stearns, J. Geophys. Res. 84, 
7698, 1979.

 8.  Parker, R.L. and M.K. McNutt, Statistics for the one-norm misfit 
measure, J. Geophys. Res. 85, 4429-4430, 1980.

 9.  McNutt, M.K., Implications of regional gravity for state of stress 
in the Earth's crust and upper mantle, J. Geophys. Res. 85, 6377-6397, 
1980.

10.  McNutt, M.K. and Thomas Heaton, An evaluation of the seismic 
window theory for earthquake prediction, California Geology 34, 12-16, 
1981.

11.  McNutt, M.K. and Rodey Batiza, Paleomagnetism of Northern Cocos 
seamounts: Constraints on absolute plate motion, Geology 9, 148-154, 
1981.

12.  Rundle, John and M.K. McNutt, Southern California uplift: Is it or 
isn't it? EOS, Trans. Amer. Geophys. Union 62, 97-98, 1981 (refereed 
journal article).

13.  Chase, C.G. and M.K. McNutt, The geoid: effect of compensated 
topography and uncompensated trenches, Geophys. Res. Lett. 9, 29-32, 
1982.

14.  McNutt, M.K. and H.W. Menard, Constraints on yield strength in the 
oceanic lithosphere derived from observations of flexure, Geophys. J. 
Roy. Astr. Soc. 71, 363-395, 1982.

15.  Menard, H.W. and M.K. McNutt, Evidence for and consequences of 
thermal rejuvenation of the lithosphere, J. Geophys. Res. 87, 8570-
8580, 1982.

16.  Dixon, T.H., M. Naraghi, M.K. McNutt and S.M. Smith, Bathymetric 
prediction from SEASAT altimeter data, J. Geophys. Res. 88, 1563-1571, 
1983.

17.  McNutt, M.K., Influence of plate subduction on isostatic 
compensation in northern California, Tectonics 2, 399-415, 1983.

18.  McNutt, M.K., Reply to comments on ``Nasal surgery and airflow,'' 
Plastic and Reconstructive Surgery 73, 700-701, 1984.

19.  McNutt, M.K., Lithospheric flexure and thermal anomalies, J. 
Geophys. Res. 89, 11, 180-11, 194, 1984.

20.  Committee on Geodesy, Geodesy: A Look to the Future, National 
Academy Press, Washington, D.C., 1985.

21.  McNutt, M.K., Nonuniform magnetization of seamounts: a least-
squares approach, J. Geophys. Res. 91, 3686-3700, 1986.

22.  Sheffels, B. and M.K. McNutt, The role of subsurface loads and 
regional compensation in the isostatic balance of the Transverse 
Ranges, California: Evidence for intracontinental subduction, J. 
Geophys. Res. 91, 6419-6431, 1986.

23.  McNutt, M.K. and L. Shure, Estimating the compensation depth of 
the Hawaiian swell with linear filters, J. Geophys. Res. 91, 13915-
13923, 1986.

24.  Fischer, K., M.K. McNutt, and L. Shure, Thermal and mechanical 
constraints on the lithosphere beneath the Marquesas swell, Nature 322, 
733-736, 1986.

25.  McNutt, M.K. and L. Royden, Extremal bounds on geotherms in 
eroding mountain belts from metamorphic pressure-temperature 
conditions, Geophys. J. Roy. Astr. Soc. 88, 81-95, 1987.

26.  Kogan, M.G. and M.K. McNutt, Isostasy in the USSR I: Admittance 
data, in The Composition, Structure, and Dynamics of the Lithosphere-
Asthenosphere System, K. Fuchs and C. Froidevaux, eds., Geodynamics 
Series, AGU, vol. 16, 1987.

27.  McNutt, M.K. and M.G. Kogan, Isostasy in the USSR II: 
Interpretation of admittance data, in The Composition, Structure, and 
Dynamics of the Lithosphere-Asthenosphere System, K. Fuchs and C. 
Froidevaux, eds., Geodynamics Series, AGU, vol. 16, 1987.

28.  McNutt, M.K., Lithospheric stress and deformation, Rev. Geophys. 
25, 1245-1253, 1987.

29.  McNutt, M.K. and K.M. Fisher, The South Pacific superswell, in 
Seamounts, Islands, and Atolls, B. Keating, P. Fryer, R. Batiza, and 
G.W. Boehlert, eds., Geophysical Monograph #43, American Geophysical 
Union, Washington, D.C., 1987.

30.  McNutt, M.K., Temperature beneath midplate swells: the inverse 
problem, in Seamounts, Islands, and Atolls, B. Keating, P. Fryer, R. 
Batiza, and G.W. Boehlert, eds., Geophysical Monograph #43, American 
Geophysical Union, Washington, D.C., 1987.

31.  McNutt, M.K., Thermal and mechanical properties of the Cape Verde 
Rise, J. Geophys. Res. 93, 2784-2794, 1988.

32.  McNutt, M.K., M. Diament, and M.G. Kogan, Variations in elastic 
plate thickness at continental thrust belts, J. Geophys. Res. 93, 8825-
8838, 1988.

33.  McNutt, M.K., If only we had better gravity data. . ., Special 
Report of the Committee on Geodesy, National Research Council, May, 
1988.

34.  Kruse, Sarah, and M. McNutt, Compensation of Paleozoic orogens: a 
comparison of the Urals to the Appalachians, Tectonophysics 154, 1-17, 
1988.

35.  McNutt, M.K., Isostasy, in Encyclopedia of Structural Geology and 
Plate Tectonics, C. Seyfert, ed., Van Nostrand Reinhold, New York, 
1988.

36.  McNutt, M., K. Fischer, S. Kruse, and J. Natland, The origin of 
the Marquesas Fracture Zone Ridge and its implications for the nature 
of hot spots, Earth Planet. Sci. Lett. 91, 381-393, 1989.

37.  Sheehan, Anne, and M. McNutt, Constraints on the thermal structure 
of the Bermuda Rise from geoid height and depth anomalies, Earth 
Planet. Sci. Lett. 93, 377-391, 1989.

38.  Filmer, Paul, and M. McNutt, Geoid anomalies over the Canary 
islands group, Marine Geophys. Res. 11, 77-87, 1989.

39.  McNutt, M.K., Gravity and Isostasy, Encyclopedia of Solid Earth 
Geophysics, D.E. James, ed., Van Nostrand Reinhold, New York, 1989.

40.  McNutt, M.K. and A.V. Judge, The superswell and mantle dynamics 
beneath the South Pacific, Science 248, 969-975, 1990.

41.  McNutt, M.K., Deep causes of hot spots, Nature 346, 701-702, 1990.

42.  McNutt, M.K., E.W. Winterer, W. Sager, J. Natland, and G. Ito, The 
Darwin Rise: A Cretaceous superswell? Geophys. Res. Lett. 17, 1101-
1104, 1990.

43.  Ruppel, Carolyn, and M. McNutt, Regional compensation of the 
Greater Caucasus Mountains based on an analysis of Bouguer gravity 
data, Earth Planet. Sci. Letts. 98, 360-379, 1990.

44.  Wolfe, Cecily and M.K. McNutt, Compensation of Cretaceous 
seamounts of the Darwin Rise, northwest Pacific Ocean, J. Geophys. Res. 
96, 2363-2374, 1991.

45.  Kruse, Sarah, M.K. McNutt, J. Phipps-Morgan, L. Royden, and B. 
Wernicke, Lithospheric extension near Lake Mead, Nevada: a model for 
ductile flow in the lower crust, J. Geophys. Res. 96, 4435-4456, 1991.

46.  Judge, Anne, and M.K. McNutt, The relationship between plate dip 
and elastic plate thickness: A study of the Peru-Chile Trench, J. 
Geophys. Res. 96, 16, 625-16, 639, 1991.

47.  McNutt, M.K., Lithospheric Plates, Encyclopedia of Earth System 
Science, W.A. Nierenberg, Ed., Academic Press, San Diego, Ca, 1991.

48.  Christeson, Gail C. and M.K. McNutt, Geophysical constraints on 
the state of stress along the Marquesas Fracture Zone, J. Geophys. Res. 
97, 4425-4438, 1992.

49.  Bonneville, A. and M.K. McNutt, Shear strength of the great 
Pacific fracture zones as derived from shipboard bathymetry and 
gravity, Geophys. Res. Letts. 19, 2023-2026, 1992.

50.  Kogan, M.G. and M.K. McNutt, Gravity field over northern Eurasia 
and variations in the strength of the upper mantle, Science 259, 473-
479, 1993.

51.  Ruppel, Carolyn, M.G. Kogan, and M.K. McNutt, Implications of new 
gravity data for Baikal Rift zone structure, Geophys. Res. Letts 20, 
1635-1638, 1993.

52.  Winterer, E.L., J.H. Natland, R. Van Waasbergen, R.A. Duncan, M.K. 
McNutt, C.J. Wolfe, I. Premoli-Silva, W.W. Sager, and W.V. Sliter, 
Cretaceous guyots in the northwest Pacific: An overview of their 
geology and geophysics, in Mesozoic Pacific: Geology, Tectonics, and 
Volcanism, Geophys. Monogr. Ser., vol. 77, edited by M. Pringle, pp. 
307-334, AGU, Washington, D.C., 1993.

53.  Filmer, Paul E., M.K. McNutt, and Cecily J. Wolfe, Elastic 
thickness of the lithosphere in the Marquesas Islands and Society 
Islands, J. Geophys. Res. 98, 19, 565-19, 578, 1993.

54.  Wolfe, Cecily J., Marcia K. McNutt, and Robert S. Detrick, The 
Marquesas archipelagic apron: Seismic stratigraphy and implications for 
volcano growth, mass wasting, and crustal underplating, J. Geophys. 
Res. 99, 13, 591-13, 608, 1994.

55.  Waschbusch, Paula J. and Marcia K. McNutt, Yellowstone: A 
continental midplate (hot spot) swell, Geophys. Res. Letts. 21, 1703-
1706, 1994.

56.  Filmer, P. E., M.K. McNutt, H. Webb, and D. Dixon, Volcanism and 
archipelagic aprons in the Marquesas and Hawaiian Islands, Marine 
Geophys. Res. 16, 385-406, 1994.

57.  Makedonskii, E.L., G. Balmino, V. Galazin, M.G. Kogan, and M.K. 
McNutt, Gravity field over the former Soviet Union mapped, EOS, Trans. 
Amer. Geophys. Union 75, 463-464, 1994.

58.  Jin, Yu, Marcia McNutt, and Yongshen Zhou, Evidence from gravity 
and topography for folding of Tibet, Nature 371, 669-674, 1994.

59.  Kuykendall, Martha, Sarah Kruse, and Marcia McNutt, The effects of 
changes in plate motions on the shape of the Marquesas Fracture Zone, 
Geophys. Res. Letts. 21, 2845-2848, 1994.

60.  Caress, D.W., M.K. McNutt, R.S. Detrick, and J.C. Mutter, Seismic 
imaging of hotspot-related crustal underplating beneath the Marquesas 
Islands, Nature 373, 600-603, 1995.

61.  Ito, G., M.K. McNutt, and R.L. Gibson, Crustal structure of the 
Tuamotu Plateau, 15 S and implications for its origin, J. Geophys. Res. 
100, 8097-8114, 1995.

62.  McNutt, M.K., Marine geodynamics: depth-age revisited, Rev. 
Geophys., U.S. National Report Supplement, 413-418, 1995.

63.  Jordahl, Kelsey, Marcia McNutt, Helen Webb, Sarah Kruse, and 
Martha Kuykendall, Why there are no earthquakes on the Marquesas 
Fracture Zone, J. Geophys. Res. 100, 24, 431-24, 447, 1995.

64.  McNutt, Marcia K. and Leigh H. Royden, The building of Tibet, The 
Explorers' Journal 73, 10-17, 1995.

65.  Haggerty, J., I. Premoli Silva, F. Rack, and M.K. McNutt (Eds.), 
Proceedings of the Ocean Drilling Program, Scientific Results, 144, 
College Station, Texas, 1995.

66.  Jin, Yu, Marcia McNutt, and Yongshen Zhou, Mapping the descent of 
Indian and Eurasian plates beneath the Tibetan plateau from gravity 
anomalies, J. Geophys. Res. 101, 11275-11290, 1996.

67.  McNutt, M.K., L. Sichoix, and A. Bonneville, Modal depths from 
shipboard bathymetry: There IS a South Pacific Superswell, Geophys. 
Res. Letts. 23, 3397-3400, 1996.

68.  McNutt, M.K. and A. Bonneville, Mapping the seafloor from space, 
Endeavour 20, 157-161, 1996.

69.  McNutt, M.K., D. Caress, J. Reynolds, and K. Jordahl, Failure of 
plume theory to explain multiple episodes of stress-triggered volcanism 
in the Austral Islands, Nature 389, 479-482, 1997.

70.  McNutt, M.K., Superswells, Rev. Geophys. 36, 211-244, 1998.

71.  Jordahl, K.A., M.K. McNutt, and H. Zorn, Pacific-Farallon relative 
motion 42-59 determined from magnetic and tectonic data from the 
southern Austral Islands, Geophys. Res. Letts. 25, 2869-2872, 1998.

72.  Sichoix, L.A. Bonneville, and M. McNutt, Analysis of modal depths 
and re-examination of the swells and the Superswell in the South 
Pacific, J. Geophys. Res. 103, 27, 123-27, 133, 1998.

73.  McNutt, M.K., Achievements in marine geology and geophysics, in 
Fifty Years of Ocean Discovery, National Academy Press, Washington, 
D.C., pp. 51-64, 1999.

74.  McNutt, M.K., The future of marine geology and geophysics: a 
summary, in Fifty Years of Ocean Discovery, National Academy Press, 
Washington, D.C., pp. 172-183, 1999.

75.  Kogan, M.G. and M.K. McNutt, Viscosity of the upper mantle: 
continent versus ocean differences, in revision for J. Geophys. Res., 
1999.

76.  McNutt, M.K., Earth and Environmental Science, in Frontiers of the 
Mind of the Twenty-first Century, Library of Congress, 1999.

77.  McNutt, M.K. and Alain Bonneville, Chemical origin for the 
Marquesas swell, Geochem. Geophys. Geosystems, 19999GC000028, 2000.

78.  Brady, R., B. Wernicke, M. McNutt, J. Mutter, and G. Correa, 
Results of the Basin and Range Geoscientific Experiments (BARGE): A 
marine-style seismic reflection survey across the eastern boundary of 
the central Basin and Range Province, Geochem. Geophys. Geosystems 1, 
2000.

79.  Harris, R.N., R.P. Von Herzen, M.K. McNutt, Grant Garven, and 
Kelsey Jordahl, Submarine hydrogeology of the Hawaiian archipelagic 
apron, Part 1, Heat flow patterns north of Oahu and Maro Reef, J. 
Geophys. Res. 105, 21, 371-21, 385, 2000.

80.  Harris, R.N., Grant Garven, Jennifer Georgen, M.K. McNutt, and 
R.P. Von Herzen, Submarine hydrogeology of the Hawaiian archipelagic 
apron, Part 1, Numerical simulations of flow, J. Geophys. Res. 105, 21, 
353-21, 369, 2000.

81.  McNutt, M.K. and R.D. Ballard, Two case studies of collaborations 
between aquariums and research institutions in exploration and 
education, Mar. Tech. Soc. J. 35, 76-85, 2001.

82.  McNutt, M.K., Engineering the ocean, in The Invisible Future: The 
Seamless Integration of Technology in Everyday Life, P. Deming, ed., p. 
27-42, McGraw-Hill, 2001.

83.  McNutt, M.K., Heat flow variations over Hawaiian swell controlled 
by near-surface processes, not plume properties, in Hawaiian Volcanoes: 
Deep Underwater Perspectives, E. Takahashi, ed., AGU Monograph 128, 
Washington, D.C., 2002.

84.  McNutt, M.K., Ocean exploration, Oceanography 15, 112-121, 2002.

85.  Jiang, Xiaodian, Yu Jin, and M.K. McNutt, Lithospheric deformation 
beneath the Altyn Tagh and West Kunlun faults from recent gravity 
surveys, J. Geophys. Res. 109, B05406, doi:10.1029/2003JB002444, 2004.

86.  Jordahl, Kelsey, D. Caress, M. McNutt, and A. Bonneville, Seafloor 
topography and morphology of the Superswell region, The Pacific Ocean 
Hot Spots, R. Hekinian, P. Stoffers, and J.-L. Cheminee, Eds., 
Springer-Verlag, pp. 9-28, 2004.

87.  Jordahl, Kelsey, M. McNutt, and D. Caress, Multiple episodes of 
volcanism in the Southern Austal Islands: Flexural constraints from 
bathymetry, seismic reflection, and gravity data, J. Geophys. Res. 109, 
B06103, doi:10.1029/2003JB002885, 2004.

88.  Harris, Robert and M.K. McNutt, Heat Flow on Hot Spot Swells: 
Evidence for Fluid Flow, accepted, J. Geophys. Res., 2006.

    Chairman Ehlers. Thank you very much, and thank you to all 
the witnesses. As I announced earlier, we would stop the 
proceedings as soon as the sponsor of the bill arrived, and 
Congressman Saxton is here. Mr. Spinrad, would you be kind 
enough to just step aside for a moment, and Mr. Saxton, you can 
take that seat.
    Mr. Saxton is the author and principal sponsor of H.R. 
3835, which is the subject of the hearing today. He has a 
number of eminent cosponsors as well, and we are very pleased 
to welcome you, Jim. I have explained that you had scheduling 
problems, so we will fit you in whenever you get here, and we 
will not bother you with questions, because we can always 
question you later.
    But we would appreciate your testimony on this issue. Thank 
you for being here. I think your mike is not on.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. Okay, thank you. Chairman Ehlers, thank you 
very much, and Ranking Member Wu, and Members of the Committee. 
Thank you for giving me the opportunity to testify, and 
particularly, thank you for your consideration of the National 
Ocean Undersea Research Program, and for considering this bill 
today.
    Our dependence on healthy marine ecosystems continue to 
grow. Mr. Gilchrest and I work on these issues almost all day 
every day, and so, we are very eager to have this bill enacted 
into law. Ocean exploration and undersea research remain a 
relatively minor component of the U.S. ocean science, and is a 
missing link in our national strategy to better understand the 
Earth's environment.
    When I walked into the room, I saw the Tennyson quote on 
the wall, which I find quite fascinating, and fits right into 
today's hearing: ``For I dipped into the future, far as human 
eyes could see; Saw the vision of the world, and all the wonder 
that would be.'' These programs are intended to give us that 
vision beneath the Earth's--beneath the ocean's surface, and 
therefore, become an extremely important component in our 
understanding of earth sciences.
    Consequently, the report of the U.S. Commission on Ocean 
Policy recommended the National Oceanic and Atmospheric 
Administration and the National Science Foundation should lead 
an expanded National Ocean Exploration Program. I am proud to 
be the sponsor of the National Ocean Exploration Program Act to 
promote implementation of the Commission's recommendation.
    The bill authorizes two important ocean programs, the Ocean 
Exploration Program and the National Undersea Research Program. 
The National Ocean Exploration Program Act would create better 
coordinated--better coordination between NOAA and the National 
Science Foundation. Among the purposes of the Act are to expand 
ocean exploration, to discover the new marine substances, which 
would potentially have therapeutic benefits; and to study 
unique marine ecosystems, organisms, and the geology of the 
world's oceans. As the federal agency responsible for managing 
living marine and coastal resources, NOAA requires a presence 
beneath the sea and Great Lakes to better understand the 
systems under its management. The Undersea Research Program 
provides NOAA with the unique ability to access the undersea 
environment, either directly, with submersibles and technical 
diving, or virtually, by using robots and seafloor 
observatories.
    Both of these programs authorized by the legislation are 
core to the mission of NOAA. This past year, several weather 
events, hazardous material spills, the increasing occurrence of 
harmful red tide events, and the continued decline of the 
coastal resources and habitats demonstrated the need for 
timely, accurate environmental information that can inform 
decision-making to reduce loss of life, property, and coastal 
infrastructure, and to improve management of marine and coastal 
resources. A primary focus of NOAA's Undersea Research Program 
is to help provide the information to meet these very needs.
    As Members of this committee will recall, I have a long 
history of Undersea Research Program interest, which was 
established by NOAA shortly before I came to Congress. As a 
matter of fact, with the Mid-Atlantic Bight Undersea Research 
Center, which is based in my district, I am very familiar with 
the work conducted through this regional center.
    As an example, in mid-1996, the Mid-Atlantic Bight Center 
established the world's first long-term ecosystem observatory, 
commonly referred to, Mr. Chairman, as Leo XV. Situated on the 
continental shelf off New Jersey, Leo XV provides a real-time 
interface with advanced samplers and sensors, enabling 
investigators to plug in instruments, conduct and modify 
experiments remotely, and access data via the Internet. This 
has been a very interesting part of the 3rd District of new 
Jersey.
    Critical research on the fate and effects of deep sea waste 
disposal that redefine our national waste management strategy; 
a few more examples include: development of new samplers and 
sensors for ocean observing systems, via the Leo XV underwater 
observatory; novel applications of autonomous undersea 
vehicles, and emerging acoustic technologies to track and 
monitor fish, their migration, and habitat use; major studies 
on the effects of trawling on the bottom continues to have 
informed fisheries' managements' efforts; development of the 
REMUS autonomous undersea vehicle that enables investigators to 
conduct detailed transects of the coastal ocean processes and 
features; and finally, the creation of acclaimed education and 
outreach programs that capitalize on real-time data systems to 
enrich science education, teaching of basic skills, and 
enhancement of ocean literacy among the young people of our 
country.
    H.R. 3835 is co-sponsored by our colleagues who host 
regional NURP centers in their districts, as well as others who 
recognize the strengths and benefits of the program, a 
regionally based structure that leverages the Nation's best 
talent to address NOAA's undersea research and technology 
requirements, mechanisms to transfer science-based information 
to the management, education, and science communities, and an 
unparalleled record of safe field operations in the ocean.
    Mr. Chairman and Members of the Committee, I have a longer 
statement I would like to submit for the record, but this is, 
in effect, a summary of my feelings on this matter, and I thank 
you once again for giving me the opportunity to come here and 
say these things.
    [The prepared statement of Mr. Saxton follows:]

            Prepared Statement of Representative Jim Saxton

                      Talking Points on H.R. 3835

    Thank you for the opportunity to testify on behalf of H.R. 3835, 
which will authorize the Ocean Exploration and NOAA Undersea Research 
Programs.
    Although our dependence on healthy marine ecosystems continues to 
grow, ocean exploration and undersea research remain a relatively minor 
component of U.S. ocean science and is a missing link in our national 
strategy to better understand the Earth's environment.
    Consequently, the report of the U.S. Commission on Ocean Policy 
recommended the National Oceanic and Atmospheric Administration and the 
National Science Foundation should lead an expanded national ocean 
exploration program. I am proud to be the sponsor of the National Ocean 
Exploration Program Act to promote implementation of the Commission's 
recommendation.
    This bill authorizes two important ocean programs--the Ocean 
Exploration Program and the National Undersea Research Program.
    The National Ocean Exploration Program Act will create better 
coordination between NOAA and the National Science Foundation. Among 
the purposes of the Act are to expand ocean exploration to discover new 
marine substances that potentially have therapeutic benefits; to study 
unique marine ecosystems, organisms and the geology of the world's 
oceans.
    As the federal agency responsible for managing living marine and 
coastal resources, NOAA requires a presence beneath the sea and Great 
Lakes to better understand the systems under its management. The 
Undersea Research Program provides NOAA with the unique ability to 
access the undersea environment either directly with submersibles and 
technical diving, or virtually using robots and seafloor observatories. 
Both of the programs authorized by this legislation are core to the 
mission of NOAA.
    This past year, severe weather events, hazardous material spills, 
the increasing occurrence of harmful red tide events, and the continued 
decline of coastal resources and habitats demonstrated the need for 
timely, accurate environmental information that can inform decision-
making to reduce loss of life, property and coastal infrastructure, and 
to improve management of marine and coastal resources. A primary focus 
of NOAA's Undersea Research Program is to help provide the information 
to meet these needs.
    As Members of this committee will recall, I have a long history 
with Undersea Research Program, which was established by NOAA shortly 
before I came to Congress. With the Mid-Atlantic Bight Undersea 
Research Center based in my district, I am very familiar with the work 
conducted through this regional center. A few examples include:

        <bullet>  In 1996, the Mid-Atlantic Bight Center established 
        the world's first Long-term Ecosystem Observatory, commonly 
        referred to as LEO-15. Situated on the continental shelf off 
        New Jersey, LEO-15 provides a real-time interface with advanced 
        samplers and sensors enabling investigators to plug in 
        instruments, conduct and modify experiments remotely, and 
        access data via the Internet.

        <bullet>  Critical research on the fate and effects of deep sea 
        waste disposal that redefined our national waste management 
        strategy.

        <bullet>  Development of new samplers and sensors for ocean 
        observing systems via the LEO-15 underwater observatory, novel 
        applications of autonomous undersea vehicles, and emerging 
        acoustic technologies to track and monitor fish behavior, 
        migration, and habitat use.

        <bullet>  Major studies on the effects of trawling on bottom 
        communities that have informed fisheries management efforts.

        <bullet>  Development of the REMUS autonomous undersea vehicle 
        that enables investigators to conduct detailed transects of 
        coastal ocean processes and features, and

        <bullet>  Creation of acclaimed education and outreach programs 
        that capitalize on real-time data streams to enrich science 
        education, teaching of basic skills, and enhancement of ocean 
        literacy among our youth.

    H.R. 3835 is co-sponsored by our colleagues who host regional NURP 
centers in their districts, as well as others who also recognize the 
strengths and benefits of the program:

        <bullet>  A regionally-based structure that leverages the 
        Nation's best talent to address NOAA's undersea research and 
        technology requirements,

        <bullet>  Mechanisms to transfer science-based information to 
        the management, education and science communities, and

        <bullet>  An unparalleled record of safe field operations in 
        the ocean.

    Mr. Chairman, I have a longer statement I would like to submit for 
the record that elaborates on each of these key elements--elements that 
I am hopeful will be preserved in H.R. 3835, as well as in the ongoing 
merger of the Ocean Exploration and Undersea Research Programs in NOAA.
    Thank you again for holding this hearing today and for the 
opportunity to testify. I look forward to working with the Committee to 
move the bill forward.
    Addendum to Mr. Saxton's oral testimony:

1) Regional Structure

    NOAA has a long history of partnering with academic institutions to 
leverage regional benefits on behalf of agency science, management and 
education programs. This is evident in programs such as Sea Grant and 
the National Estuarine Research Reserve System. The benefits of the 
NURP partnership with university-based regional Centers are many:

        <bullet>  Access to a broad talent pool of researchers, 
        engineers and educators

        <bullet>  Ready access to regional and local management 
        agencies

        <bullet>  Enhanced ability to leverage partnerships and 
        resources

        <bullet>  Efficient mechanism to disseminate information to 
        stakeholders at regional and local levels

        <bullet>  Regional-scale programs are required to enable 
        ecosystem approaches to management

        <bullet>  Development and experienced, safe operation of 
        advanced undersea technology.

    With respect to the last point, I want to point out that despite a 
relatively modest budget, the NURP program has contributed greatly to 
development of advanced undersea technology. Most notable for me is the 
establishment of LEO-15, an undersea observatory that serves as the 
model for the Nation's emerging ocean observing system. This platform 
was recently renovated with the latest software and hardware to enable 
it to continue to serve as a testbed for development of samplers and 
sensors. In addition, NURP has developed a broad suite of samplers and 
sensors for undersea vehicles. Support for this and other technology 
development should continue to be provided by NOAA and is recognized as 
a distinct part of this bill under authorization of appropriations.
    I'm aware that, due to funding constraints, efforts are underway to 
consolidate the four existing regional centers on the east coast. This 
is an effort that I've been tracking closely. I want to ensure that the 
benefits provided by the regional construct are not lost in this 
consolidation, or in the merger process. Ideally, there should be at 
least two centers on the east coast with one of these centers serving 
the needs of the northeast. I'm well aware, and my colleague from 
Connecticut is well aware that the respective center directors for the 
Mid-Atlantic and Northeast regions have been working on a joint or 
consolidated center to serve the Mid-Atlantic, New England and Great 
Lakes regions. I believe that H.R. 3835 codifies the regional NURP 
structure, and I urge NOAA to ensure that a northeast regional presence 
be maintained to capitalize on the expertise resident in the existing 
Mid-Atlantic and Northeast Undersea Centers.

2) Transfer of Science-Based Information

    In collaboration with partners leveraged via the regional centers, 
NURP has excelled in the delivery of science-based information to user 
groups such as fishery managers, coastal managers, educators, students 
and the general public. This has been accomplished largely with 
external sources of funding and is a good example of a benefit of the 
regional center construct. For example, the NURP Centers on the east 
coast worked with the Office of Ocean Exploration to produce the at-sea 
education program for the Deep East expedition in 2001, an expedition 
that featured submersible dives to unexplored parts of the Hudson 
Submarine Canyon. In addition, the Mid-Atlantic Center works in 
partnership with the Mid-Atlantic center for Ocean Sciences education 
Excellence to deliver real world science to students throughout the 
region, an effort that is now being expanded throughout the country. 
The NURP Centers possess strong capabilities in education and outreach, 
an element that is recognized in H.R. 3835 and must be preserved in the 
merger between OE and NURP.

3) Safety

    For more than 30 years, the NURP program has conducted undersea 
research activities without mishap. This is a tribute to the knowledge, 
expertise and capabilities of the science and operations staff at the 
regional centers. This is yet another example of the benefit of the 
existing regional centers. If this capability were lost, either through 
consolidation or the merger, it would be extremely difficult to 
reestablish. As I noted earlier, great care must be taken to ensure 
that strengths of the NURP program be codified in H.R. 3835 and 
maintained in the merger process. Center personnel and infrastructure 
represent key strengths that must be preserved in the regions.

Merging NURP and OE

    NOAA has begun a process to merge NURP and OE. This process is 
expected to take about 12 to 18 months. During this time, I will ask 
NOAA to provide regular progress reports to the House Fisheries and 
Oceans Subcommittee. In addition, I strongly urge NOAA to continue 
active engagement of the NURP Center directors in the merger process. 
The merger should preserve the strengths of the NURP program as I 
outlined earlier. In addition, the merger should provide a clear role 
for the NURP Center Directors in the leadership, direction, and 
decision-making of the NURP/OE program.

Recommendations:

        1)  In an effort to remain as similar as possible to the other 
        chamber's bill, H.R. 3835 retained the same title as S. 39--to 
        establish a coordinated national ocean exploration program 
        within the National Oceanic and Atmospheric Administration. I 
        now recommend changing the short title to recognize the 
        importance of the NOAA Undersea Research Program.

        2)  Instruct NOAA to preserve the regional center structure and 
        its associated benefits in the merger between NURP and OE.

        3)  Ensure that the NURP regional centers are adequately 
        represented in the leadership and decision-making of the merged 
        NURP/OE program.

        4)  At the Fisheries and Oceans Subcommittee hearing on the 
        bill in the Resources Committee, it became apparent that there 
        were questions regarding how the two programs, NURP and OE, 
        would be merged and coordinated. This largely stems from the 
        fact that the bill establishes similar authorities for both 
        ocean exploration and undersea research. For example, both 
        programs are authorized to develop technology, administer 
        proposal-driven programs, and conduct education and outreach 
        activities. A mechanism to ensure coordination of effort among 
        these programs is recommended.

    Chairman Ehlers. Thank you very much, and without 
objection, your longer statement will be entered into the 
record, as well as a copy of the letter we have received from, 
it was addressed to Vice Admiral Conrad Lautenbacher of the 
National Oceanic and Atmospheric Administration, from J. Val 
Klump of the University of Wisconsin in Milwaukee.
    So, thank you very much for being here, Mr. Saxton. And I 
do want to mention, I am sure you are aware that I have been 
working for six years on the NOAA Organic Act. We are finally 
making considerable progress. It passed this committee long 
ago. I hope to get it passed into law before the end of the 
year, and I hope it will mesh well with your bill.
    Thank you very much.

                               Discussion

    Thank you for the quick switch back and forth, and we will 
get into the questions. I did want to mention Dr. McNutt, your 
point about exploration not being explicitly part of NOAA's 
mission. As part of the NOAA Organic Act, which I just 
mentioned, we have put it in the bill, as one of their duties 
is ``conducting and supporting research and development of 
technology for exploration of the oceans.'' That is probably 
not as direct and clear as you would like, but we may be able 
to clear that up, as it goes through the process, but I think 
your point is very well taken. That should be clearly stated as 
part of NOAA's mission.

                         Support for H.R. 3835

    At this time, we open up our first round of questions. The 
Chair recognizes himself for five minutes, and first of all, 
Mr. Shepard, I just wanted to check with you on one point. We 
just heard from Mr. Saxton about the H.R. 3835, National Ocean 
Exploration Program Act of 2005, and the Undersea Research 
Program Act of 2005. Dr. McNutt, you have already stated your 
support of that.
    If you are familiar with the bills, Mr. Shepard, are you in 
support of them as well?
    Mr. Shepard. Yes.

                  Support for Interagency Coordination

    Chairman Ehlers. Thank you. I appreciate your support for 
that. The--Dr. McNutt, do you explicitly endorse the idea of 
interagency coordination, as provided in the bill? Dr. Spinrad, 
do you explicitly oppose it?
    Can you each comment on the other's position, as fairly and 
temperately as you can. Mr. Shepard, we will ask you for your 
thoughts too, as well.
    So, Dr. Spinrad, first.
    Dr. Spinrad. Thank you, Mr. Chair. I would like to clarify. 
There is absolutely no objection to interagency coordination. 
In fact, we support it strongly, and if I may point out, one of 
the positions I hold is, as Co-chair of the White House Joint 
Subcommittee on Ocean Science and Technology, with my colleague 
from the National Science Foundation, Dr. Margaret Leinen, and 
in fact, that is precisely the reason why we feel we have a 
structure in place, in fact, codified in the Administration's 
U.S. Ocean Action Plan, through the Committee on Ocean Policy 
and its subordinate committees, to accommodate the kind of 
interagency activity we talked about here, that being the Joint 
Subcommittee on Ocean Science and Technology.
    I would that, in fact, through that structure, we bring in 
a much more diverse and vast collection of agencies than we 
might otherwise, and in fact, in complete support of the 
comment made by Dr. McNutt, we would have NSF as a co-chair of 
that by definition, using an existing structure. That body, in 
fact, right now is tasked with putting out the first ever 
statement of our national ocean research priorities, which will 
be delivered 31 December, and in there, will be specific 
identification of ocean exploration.
    So, I think we are well on the way to using that particular 
structure, and that is the basis of our comment with respect to 
that technical feature of the bill.
    Chairman Ehlers. Well, thank you, and we will look into 
that in more depth, because if we take up the Saxton bill, and 
there may not be time this year, but we could take a good look 
at what you are doing now, look at what he proposes, maybe we 
can come up with a very good plan to handle that.
    Dr. Spinrad. Thank you.
    Chairman Ehlers. Mr. Shepard, do you have any comment on 
that issue?
    Mr. Shepard. Yes, thank you.
    As I pointed out in the testimony, first of all, we are 
strongly in support of the advisory boards. The taskforce, we 
are uncertain of the nature of the taskforce, but in an 
advisory capacity, fully support that.
    We understand that our activities need to be merged with 
the other federal agencies that are doing work in the oceans, 
and we want to make sure that whatever we do complements both 
ocean exploration and the other federal agencies. So, we don't 
have any objections to working--we also would suggest that we 
would like to see a NOAA, a strong NOAA advisory component as 
well, of the various line offices in NOAA.
    Chairman Ehlers. Thank you very much.
    Another question for--did you want to add some further 
comments, Dr. McNutt?
    Dr. McNutt. Just to state one.
    I understand what Dr. Spinrad means about these other 
mechanisms in place for interagency coordination, and I think 
those would be fine, if ocean exploration were a top priority 
for any of those groups meeting around the table.
    Unfortunately, I am afraid right now it is not a top 
priority, and therefore, I like this provision in H.R. 3835, 
because it instructs them specifically to make sure, in meeting 
in those--it could be in those same fora, that ocean 
exploration is part of the discussion.
    Chairman Ehlers. Thank you for clarifying that.

                         Merger of NURP and OE

    I appreciate that. Mr. Shepard and Dr. McNutt, the 
Committee, this committee has many options, as it considered 
H.R. 3835, in light of NOAA's planned merger of NURP and OE. 
So, we could, for example, add language to allow or prohibit 
the merger, or add additional requirements about the merger 
process.
    Is your suggestion that we include something along this 
line in the bill, or do you have any other suggestions? And 
this time, I will start from the other end, Dr. McNutt.
    Dr. McNutt. Well, I think my view of this is that the less 
prescriptive that this bill is on it, perhaps the better. I 
think that there are a lot of nuances as to how this merger 
comes together, and frankly, I think the success of it may 
actually boil down to who is chosen to lead the charge within 
NOAA, and therefore, I could imagine ways that it could be 
prescribed in the language that might be harmful or supportive, 
and perhaps, it is best to be nonprescriptive.
    Chairman Ehlers. Mr. Shepard, any comment?
    Mr. Shepard. Yes, thank you. As we pointed out, again, in 
the testimony, we are very comfortable with the wording as it 
is in the bill, because what it does is it takes the strengths 
of these two programs, and lays them out. And NOAA is working 
hard now to, and the two programs involved are working hard to 
come up with a plan that can then be vetted with our partners. 
So, I think there is action already on the way, and we should 
give it time to work. Thank you.
    Chairman Ehlers. Thank you. My time is expired. I am 
pleased next to recognize an eminent Member of this committee, 
who is extremely interested in these issues, Mr. Gilchrest from 
Maryland.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    I like the idea that--I think one of the issues that 
brought NASA to the forefront of the consciousness of 
Americans, besides Sputnik, was that they were going to 
explore, to go where no man has gone before, that was an 
intriguing natural inherited quality of most human beings. If 
they can't get out there and explore themselves, they want 
somebody else to do it. So, I think if we use that as a 
provision in NOAA, in a few years, it would be nice if we could 
bring NOAA up to the same level of funding as NASA, which I 
think should be a priority of this committee and the other 
committees in Congress.
    I guess the issue, and you have clarified it quite well, 
merge or not to merge. The issue is, though, coordination, 
unimpeded exchanges of information, so that people can 
collaborate with that information, become more competent, and 
work together, in that sense, to begin to understand, at this 
stage in our nation's history and world history, what are the 
priorities, as far as the Earth and the oceans are concerned.

             Priorities for Ocean Exploration and Research

    So, the question that I would have is how do you set 
priorities for the various programs, whether it is research or 
exploration? Number two, is ocean chemistry, in light of 
CO<INF>2</INF> sink for the ocean, one of your priorities? And 
the consequences over the next few decades of that to ocean 
life.
    Do you have as a priority, as a result of the thermohaline 
system with global warming, understanding, new understanding of 
ocean circulation, the conveyor belt phenomenon in the North 
Atlantic?
    And then one thing that Mr. Saxton raised was what is the 
understanding, or the nexus between global warming, hurricanes, 
sea surface temperature, and the consequences, pretty direct, 
to coastal communities?
    So, I guess if you got all of that, I am not sure if I 
could remember all that myself, but just a brief comment from 
each person would be appreciated.
    Dr. McNutt. Okay. I will start by making a stab at this. 
First of all, the last question first, connection between 
hurricanes, global warming, et cetera. From what we know now of 
the genesis of hurricanes, they live off an energy transfer 
from the thermocline up into the atmosphere, and to the extent 
that we are increasing the strength of that, there is a 
definite concern about increasing frequency, and in fact, there 
has been some new studies published in Science magazine that 
shows that even the historical record is starting to show the 
increased pace of destructive hurricanes.
    In terms of whether chemistry is involved in ocean 
exploration, exactly. In the President's Panel report, where we 
lay out the priorities of the program, mapping the ocean in all 
of its dimensions is a very high priority. The beauty of 
exploration is if you do it in a systematic way, that mapping 
can be multidimensional, such that at the same time you are 
looking at the thermohaline circulation, you are also looking 
at the changing chemistry of the ocean, and you are also 
looking at the changing biology. And when we talk about 
mapping, it is four dimensional. We have to map in time too, 
and there is the beautiful connection to the National Science 
Foundation's Ocean Observing Program, and to NOAA's IOOS, the 
Integrated Ocean Observing System.
    And so all of these programs need to be brought together, 
and that is why, in my diagram, I tried to show the importance 
of this interagency cooperation and collaboration. When you 
talk about the fact that NASA has definitely captured the 
imagination of the public, and wouldn't we like to have NOAA on 
that same pedestal, I think to too many Americans, NOAA is 
viewed as a bunch of lawyers who deal with lawsuits when their 
data is used incorrectly and fisheries collapse. Wouldn't we 
love it if NOAA was viewed as explorers who are adding to our 
basic understanding of this planet?
    Just in, rewriting, Mr. Saxton brought up Tennyson's. I 
think that should be changed to: ``I dipped into the ocean 
further than human eyes could see. Saw the vision of this water 
world, and all the wonder that would be.''
    Mr. Gilchrest. Mr. Spinrad, do you have a comment?
    Dr. Spinrad. First, Mr. Gilchrest, let me take this 
opportunity, and thank you for your strong support for these 
activities. This, as your set of questions indicates, is an 
extraordinarily diverse, and also, extraordinarily exciting 
portfolio of opportunities.
    I would like to address my comments to your focus on 
prioritization, how do we move towards priorities? As a mission 
agency, NOAA has specific mission goals, in climate, in 
ecosystems, in weather, in commerce and transportation. So, the 
initial answer to your question, as we look at our priorities 
within those mission goals, and then, working, this is where 
that interagency collaboration is critical, we have to work 
with the Office of Naval Research, who has a national security 
mission. We have to work with NIH, who has a health mission, 
all the way down the line. We have to work with Energy.
    All of these issues, the research associated with them will 
be driven by the particular questions we need to answer, and 
the fascinating part about some of what you are hearing among 
this panel is that one of the best ways to identify those 
questions is through exploration and discovery, especially in 
an environment where we have such a great unknown, whether it 
is 95 percent or 70 percent, we have a large percentage of 
unknown with regard to processes, parameters, features, and the 
oceans.
    So, my perspective on us is that the value of the ocean 
exploration program is it helps us define those particular 
questions which we can take into a multi-mission, that is to 
say interagency venue, and determine who has got what 
responsibility for addressing these particular questions in 
climate, in human health, in natural hazards.
    The other point I will make, and your questions with 
respect to CO<INF>2</INF>, ocean acidification climate, those 
questions beg the vibrant nature of the collaboration between 
mission agency scientists, that is to say, our own scientists 
at our laboratories at NOAA, and at the Naval Research Lab and 
other labs, with the academic research community, which is why 
the kinds of capabilities that the NURP program brings to the 
table, in terms of established academic, Federal Government 
relationships, are so critical to addressing the kinds of 
questions which would be defined through exploration addressing 
agency missions.
    Mr. Gilchrest. Mr. Shepard, do you wish to add anything?
    Mr. Shepard. Yes, thank you. I just want to segue directly 
from the last thing Rick said. I think that is right on the 
mark, in that what we are saying, the strength of this bill is, 
is the question between ocean exploration and the regional 
presence that the NURP centers bring, all the issues that you 
mentioned now have a direct impact on coastal oceans and the 
coastal communities.
    Coral reefs, hurricanes, the impacts on coastal communities 
as far as shoreline erosion, sea level rise, those are all 
things that the regional coastal ocean observing system is 
connected to, and attempting to build the system that we need 
to detect these things and understand their impact. These 
regional ocean--regional undersea research centers are actively 
engaged at the regional level, with the regional associations. 
They are called that for a reason. They are set up that way for 
a reason, and having the regional presence gives you a direct 
conduit from ocean exploration directly into the management 
community. So, I think we really can add quite a bit to this 
partnership. Thank you.
    Chairman Ehlers. Thank you all. The gentleman's time 
expired. Next, I am pleased----
    Mr. Gilchrest. If the Chairman will indulge for nine and a 
half seconds.
    Chairman Ehlers. One, two, three.
    Mr. Gilchrest. The--at the expense of sounding too 
philosophical, bringing in another quote from Norman Cousins, 
editor of the Saturday Review some decades ago, which in 
essence is, I think, the mission of NOAA. Norman Cousins said: 
``Knowledge is the solvent for danger.''
    And there is potential problems out there, but it is the 
collaboration of that information, and then, the dissemination 
of that knowledge to us, the policy-makers, that can resolve 
some of those future problems.
    Thank you. Thank you, Mr. Chairman.
    Chairman Ehlers. I am pleased to recognize Dr. Schwarz for 
five minutes.
    Mr. Schwarz. Thank you, Mr. Chairman. As a fellow 
Michigander, I am going to--I am just going to throw a couple 
of things out here, numbers of them.

             Duplication, Cooperation, and the Great Lakes

    Mr. Spinrad, you dealt with, as I wrote my questions down, 
Mr. Gilchrest asked his, and you covered some of mine, so, I am 
going to probably ask you to free associate with some of these 
again, if you don't mind.
    For all three of you, are there any good private analogues 
to NURP and OE, and are we doing anything that is duplicative 
here that doesn't need to be duplicative, or is duplicativeness 
a good thing in this sense? Cooperation with the U.S. Navy, 
which you mentioned the Navy Research Labs. Are there others, 
areas where the Navy and yourselves can and should cooperate?
    Strategic missions, which would have the Navy involved, or 
other strategic missions that the new combined agency or office 
might deal with, and with whom would you cooperate, if there 
were some strategic mission that you were involved in, or 
strategic information you were tasked to assemble?
    And finally, tell me how you feel that the new agency would 
deal with issues having to do with the Great Lakes?
    Dr. Spinrad. I would be glad to walk through each of those, 
sir.
    Let me start by saying, and I am going to interpret your 
question with respect to the private analogues to mean the 
private corporate sector, because clearly, there are private 
research sectors----
    Mr. Schwarz. 501(c)(3)s, universities, and flat out 
private.
    Dr. Spinrad. Okay. The--in terms of the specificity we are 
talking about with the NURP and the OE program, I am not aware 
of specific analogues, and in fact, I would argue that one of 
the goals here, speaking as a representative of the Department 
of Commerce, one of our objectives, of course, is to stimulate 
competition, stimulate new economic sectors, and I firmly 
believe that with the kinds of activities we are talking about, 
for example, I could look you in the eye and say that we will 
spur the development of new technologies for underwater 
vehicles, for sensors, that sort of thing, and I think that is 
where the strength of the private sector intersection is with 
this activity.
    One of my favorite subjects, you raised cooperation with 
Navy. Most of my career in Washington was with the Navy, with 
the Office of Naval Research, and with the Oceanographer of the 
Navy. I feel comfortable in saying that we have got very good 
connections with both the operational and research sides of the 
Navy. Your specific question about where those intersections 
might be, I would identify four areas. One is in technology 
development. Navy has strong activities with respect to 
development of sensors and platforms and systems. Another is in 
mapping, and in fact, one of the things we are looking at is an 
integrated ocean and coastal mapping capability, where 
basically, everything we are doing in our OE and NURP programs 
is coordinated with Navy's hydrographic survey capabilities. 
Data management. Navy has extraordinary capabilities down in 
Mississippi for archiving and managing data. And then, 
observations. Dr. McNutt alluded to the Integrated Ocean 
Observing System. We look forward to working with Navy on that, 
and many of the concepts embedded in OE and NURP would be part 
of the IOOS' development.
    With regard to whom we would work with in the Navy, it is 
three sectors. It is the research sector, through the Office of 
Naval Research. It is the policy sector, through the 
Oceanographer of the Navy, and it is the fleet, so all three of 
those would be groups we would work with.
    And very succinctly, everything we have talked about here 
is intimately connected with NOAA mission objectives in the 
Great Lakes, whether it is sanctuaries, whether it is 
transportation, whether it is invasives. All of those issues 
are central to what we are talking about in ocean exploration 
and NURP, and I would foresee using the existing Great Lakes 
resources of the Sea Grant institutions, as well as our own 
Great Lakes Environmental Research Lab being central to 
activities.
    Mr. Schwarz. And let us put invasives in italics.
    Dr. Spinrad. Understood.
    Mr. Schwarz. Thank you, Mr. Chairman.
    Chairman Ehlers. The gentleman yields back.
    We have a series of votes called. It will probably take a 
half-hour or more, and I don't want to detain you that long. 
So, I have just one quick question, and the remainder of 
questions that we wish answers to, we will simply put in the 
mail to you rather than keep you here an extra hour.

                  Proposed Appropriations in H.R. 3835

    The quick question is the bill that is under discussion, 
H.R. 3835, and this is just for Mr. Shepard and Dr. McNutt, 
because I think I know what Dr. Spinrad's question would be. 
The authorization numbers in there, in other words, the amount 
of money authorized, which is a maximum that could be 
appropriated. Do you believe they are appropriate in the two 
bills? Mr. Shepard, is that enough money?
    Mr. Shepard. Yes. We have thought about it a long time. We 
understand the realities that face the Federal Government at 
this time, and we think those numbers will allow us growth.
    Chairman Ehlers. Okay. Dr. McNutt.
    Dr. McNutt. For ocean exploration, given the realities of 
the other demands on the federal budget, I think these are very 
appropriate numbers, and if appropriated to those levels, would 
lead to a very vigorous and successful program.
    Chairman Ehlers. Okay. And then one other quick question. 
Do you think the funding in the bill for the NURP centers 
should be split between the East and West Coast centers, or 
provided in one large pot, as recommended by Dr. Spinrad, so 
that NOAA would decide how to split it? Mr. Shepard.
    Mr. Shepard. I have a conflict of interest. I am on the 
East Coast. I think I had better stay out of it.
    Chairman Ehlers. You both have a conflict of interest. Dr. 
McNutt, are you going to bite the bullet, or----
    Dr. McNutt. I will declare the same conflict.
    Chairman Ehlers. All right. Thank you for your help on that 
one.
    So, thank you all very, very much for being here. It has 
been most helpful to me. I have a great love for NOAA. I have a 
great love for the research they do. I would certainly love to 
see it expanded. That, of course, is from the perspective of a 
scientist and someone on the Science Committee. But I certainly 
hope we can get the NOAA Organic Act passed, which would help 
everyone in the field, and we can perhaps incorporate the 
important elements of this in that, or take this part up early 
next year and deal with it.
    So thank you very, very much for being here. You have been 
most helpful to us, and I deeply appreciate it.
    If there is no objection, the record will remain open for 
additional statements from the Members, and for answers to any 
followup questions the Committee may ask of the witnesses. 
Without objection, so ordered.
    The hearing is now adjourned. Thank you very much.
    [Whereupon, at 3:10 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Richard W. Spinrad, Assistant Administrator, Office of 
        Oceanic and Atmospheric Research, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

Questions submitted by Chairman Vernon J. Ehlers

Q1.  With regard to the process of the proposed merger of OE and NURP, 
the merger has been planned since 2005, but there is still no clear 
picture of how NOAA will plan and conduct the merger. You also 
mentioned that you want the merger process to be inclusive. Can you 
please explain in detail (1) how you expect the planning process to 
unfold, and (2) how you plan to solicit and incorporate extramural 
input? For example, will you use informal meetings, Federal Register 
notices, or other means to reach out to the community, and will 
extramural input be included as you define the ``essential functions'' 
of the merged program?

A1. The details of an Office of Ocean Exploration (OE) and National 
Undersea Research Program (NURP) merger are being finalized in an 
integrative process that involves a core team comprised of the 
leadership of the existing OE and NURP programs, including the 
extramural directors of the regional NURP centers, and six program 
teams. The program teams are each focused on one of six functional 
areas--science, data management, technology development, education & 
outreach, administration, and operations. The program teams are 
comprised of OE and NURP staff, and personnel from the regional NURP 
centers. The regional center participants are encouraged to bring input 
from their external research partners to the process. The program teams 
are compiling recommendations as to the scope, procedures, and 
structure of their functional area. These recommendations will be used 
by the core leadership team to draft business and strategic plans, as 
well as an abstract which describes the essential function and 
anticipated structure of the new program, by early 2008. NOAA will 
solicit recommendations from the core and program teams on procedures 
to further engage the external community.
    NOAA values the involvement of the external research community in 
discussions of the merger. Accordingly, NOAA held meetings in March 
2005 and June 2006 involving external partners to characterize the 
merged program structure, short-term goals and long-term areas for 
potential collaborations. One of the outcomes from these meetings was 
the creation of the six program teams described earlier whose 
recommendation will form the basis for the draft business and strategic 
plans.
    Once internal planning has matured, external review will be sought 
from the broader undersea research and ocean exploration community and 
will be incorporated, as appropriate, into the final business and 
strategic plans. The mechanism for soliciting this review will be 
determined by NOAA before the abstract is presented to the external 
community and may include expansion of the purview of NOAA's external 
Science Advisory Board Ocean Exploration Advisory Working Group to 
include the new merged enterprise. External review may also include 
collaboration with the Consortium for Ocean Research and Education or 
other preeminent professional societies such as the American 
Geophysical Union, the Oceanographic Society, and the Marine Technology 
Society.

Q2.  With regard to the substantive outcome of the proposed merger of 
OE and NURP, prominent members of the OE community continue to express 
concern about possible downsides of a merger, particularly from the 
perspective of OE missions. For example, exploration advocates worry 
that resources will be directed away from pure exploration into 
mission-oriented survey work, diluting the goals of the program. Are 
you aware of these concerns? If so, how do you plan to address them?

A2. NOAA has been made aware of these concerns both during the hearing, 
by Dr. Marcia McNutt, and during its Ocean Exploration Advisory Working 
Group meeting in April 2006. The Ocean Exploration Advisory Working 
Group is comprised of 11 members of the extramural community and is a 
standing committee of the NOAA Science Advisory Board. NOAA will give 
concerns of the Ocean Exploration Advisory Working Group and the ocean 
exploration community full consideration as the merger progresses.
    Maintaining a robust ocean exploration program is important to 
NOAA. The merging of the Office of Ocean Exploration and the National 
Undersea Research Program will allow NOAA to bring additional 
nationwide capabilities to bear on ocean exploration. The scientific 
discoveries from ocean exploration expeditions as well as the technical 
and educational leadership demonstrated during these expeditions are 
critical to NOAA being able to meet its evolving environmental and 
economic missions. Involvement of NURP's expertise, capabilities and 
regional presence in NOAA's ocean exploration enterprise will 
strengthen the ability of the ocean exploration program to bring the 
results of discoveries to bear on NOAA's ecosystem and environmental 
prediction challenges.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Statement of U.S. Representative Rob Simmons (CT-2)
          Co-Chairman, Congressional Long Island Sound Caucus
 Co-sponsor, H.R. 3835, the Ocean Exploration and Undersea Research Act
    Thank you, Mr. Chairman, for inviting me to appear before your 
Committee on legislation important to me and to my district.
    As a co-sponsor of the bill, I would like to add my support for 
passage of H.R. 3835 that would formally incorporate the relatively 
young Office of Ocean Exploration and long-running Undersea Research 
Program within the National Oceanic and Atmospheric Administration 
(NOAA).
    As you may know, the University of Connecticut, located in my 
district, is host to the National Undersea Research Center for the 
North Atlantic and Great Lakes. For the past 20 years, the regional 
NURC center at UConn has been at the forefront of supporting research 
to meet NOAA's needs, developing and applying new technologies, and 
supporting innovative hands-on teacher professional development 
programs.
    The National Undersea Research Program already promotes working 
side by side with NOAA programs such as the National Marine Fisheries 
Service. Together they have provided support for research--directly 
aiding the New England Fishery Management Council in developing 
management actions to conserve deep water coral habitats on Georges 
Bank and better defining the role that seafloor habitats play in the 
survival and production of juvenile lobsters.
    Before coming to Congress, I served in the Connecticut General 
Assembly where I worked to provide $40 million in state investment in 
marine sciences. Much of this investment--including a 137,000 square 
foot marine science building, a state-of-the-art 77'' coastal research 
vessel, dock facility and infrastructure--directly allows the NOAA 
programs, NURC and Sea Grant to better meet NOAA's mission. By 
supporting regional centers, H.R. 3835 will continue to promote such 
fruitful partnerships.
    As you know, my district borders the Long Island Sound, a unique 
estuary with economic and ecological importance to the region and to 
the Nation. The Sound contributes approximately $6 billion annually to 
the regional economy and is a cherished resource for the 28 million 
people living within 50 miles of its shores. The Sound is heavily used 
for recreation and for commerce by residents of Connecticut and New 
York as well as numerous visitors each year. This treasure, along with 
all of our waters, deserves our utmost support.
    H.R. 3835 provides the building blocks upon which NOAA can build a 
coordinated ocean exploration and research program, ideally one with 
sustained funding levels. Our nation must maintain all the tools to 
study the complex ecosystems that lie beneath our oceans and Great 
Lakes. By authorizing H.R. 3835, we ensure that our nation maintains 
the capacity to explore, understand and promote the Earth's waters.
    I am pleased that you will have the opportunity today to hear from 
so many individuals that have committed their lives to working on and 
studying our waters. Again, I thank you and the witness panels for your 
time and consideration of H.R. 3835.

                  Statement of Mr. Robert I. Wicklund,
                    Director--Federal Programs, UNCW
                                  and
                          Dr. Daniel G. Baden,
               Director--Center for Marine Science, UNCW

    Mr. Chairman and Members of the Committee, we are pleased to submit 
this statement in the discussion of H.R. 3835 entitled the ``National 
Ocean Exploration Program Act'' in Title I, and the ``NOAA Undersea 
Research Program Act of 2005'' in Title II. We first want to commend 
the Committee for recognizing the importance of ocean exploration and 
undersea research to this nation. The National Ocean Exploration 
Program contained in Title I and the Undersea Research Program 
contained in Title II of the bill complement each other in many ways 
and they belong together in this legislation.
    We never expected to be submitting testimony to this august body in 
2006 for the passage of legislation that would give authorization to 
programs dedicated to the understanding of the undersea environment. 
Three decades ago the Senate, with a keen interest in how the Nation 
could benefit from underwater exploration and research, introduced S. 
2285 the ``Manned Undersea Science and Technology Act.'' Much of this 
old bill is similar to the legislation that we are considering here 
today, and other bills and drafted amendments have been attempted on 
both sides of the aisle since 1977. After almost thirty years, we are 
still trying to pass a bill to legitimize the need and enhance our 
ability to understand the environment that covers most of the planet. 
Our hope is that through this legislation Congress has finally come to 
recognize the enormous importance of providing the means to explore and 
study the oceans in every way possible.
    Having said that, and after much effort by this and the Resources 
Committee to move this bill, we want to add that we and our colleagues 
are dismayed by the recent actions of the House Appropriations 
Committee to virtually gut FY 2007 ocean funding for NOAA. Over a half 
billion dollars was cut from last year's funding level, almost all 
coming from the ocean side of the Agency. The programs that your 
legislation addresses in this hearing are also part of that cut. The 
Appropriations Committee provided only $16 million dollars for the two 
programs combined. This is less than half of funds that would be 
authorized in H.R. 3835. There is a disconnect here that makes little 
sense. We collectively recognize the importance of the oceans and their 
resources to the Nation's strategic and economic base in terms of 
climate, fisheries, transportation, human safety and health, tourism 
and general well being. We also recognize, as did the U.S. Commission 
on Ocean Policy, that the oceans are under siege. Coral reefs are dying 
off at record levels, killed by disease, rising temperatures, or 
crushed by destructive fishing practices. Fish population decline and 
habitat destruction are rampant. Coastal water quality is degrading. 
Coastal hazards to human life and property is on the increase due to 
hurricanes and other storm systems. These are all critical issues that 
are tied directly to the oceans. If we do not put the energy and funds 
into increasing our knowledge of the oceans, then we cannot manage 
their resources wisely nor mitigate the hazards. We find it 
inconceivable that just two years ago the Commission's Report ``An 
Ocean Blueprint for the 21st Century'' set forth a bold course to make 
understanding, protection, use and management of the oceans the highest 
of priorities. Now and over the past few years the trend seems to be to 
reduce our commitment to ocean issues. What is the reasoning, the 
complacency, the downright lack of commitment and caring for our oceans 
that is demonstrated by this nation?
    We should not, therefore, allow this important legislation, that 
will do much to address some of these concerns, slip away. We urge you, 
Mr. Chairman, in the strongest terms, to do what it takes to see that 
the Committee, the full House and the Senate pass the provisions H.R. 
3835 into law.
    We believe that it would help your committee if we gave you a quick 
history of the government's involvement in undersea research and how it 
led to where we are today. First, undersea research in NOAA began when 
the Agency was created by the Stratton Commission around 1970 as the 
Manned Undersea Science and Technology Program (MUST). One year later 
the Hydro-Lab Undersea Laboratory Program and others were launched, 
giving scientists first-hand working experience living in an undersea 
laboratory and using lock-out submersibles. It was immediately obvious 
to us that there was great potential to advance our knowledge of the 
ocean by placing humans directly into the sea. By 1980, based upon a 
report from the National Research Council, Congress worked with NOAA to 
change the program to a regional system with a stronger scientific and 
technical base in academia and industry. This was named the National 
Undersea Research Program (NURP). Also about this time, the Aquarius 
Undersea Laboratory was built and is still operating today as the only 
remaining seafloor lab in the world.
    As of 2006, the program consists of six regional Centers covering 
all coasts of the U.S. and Caribbean and a National Institute of 
Undersea Science and Technology.
    NURP has continued to operate for the past twenty-six years making 
discoveries and improving the management of our coastal, ocean and 
Great Lakes resources, placing thousands of scientists in all forms of 
diving equipment, undersea laboratories and research submersibles as 
well as using remotely operated vehicles.
    But, here again is another ocean program under siege. NURP's 
funding decreased from a high of a little over $18 million dollars ten 
years ago to about $4.5 million dollars last year. Around six years ago 
the Ocean Exploration Program was started to increase our ability to go 
even further to places never before seen by man. Although the two 
programs complemented each other in many ways, they continued to 
operate as separate entities.
    As we realized that a change was needed back in 1980 to make the 
program in undersea research more effective, it appears that it is 
time, once again, to reassess how we can make it work better and to 
bring the two programs- Ocean Exploration and Undersea Research--
together. NOAA has been working on a plan, over the past year or so, to 
restructure the two programs and merge them. The legislation you are 
considering today provides the building blocks for this new merged 
program.

MERGING THE OCEAN EXPLORATION AND UNDERSEA RESEARCH PROGRAMS

    NOAA is faced with a great challenge in its role as the Nation's 
steward of our oceans, coasts and Great Lakes--underwater ecosystems 
that are largely unknown, yet exploited and highly impacted. Continued 
failures of traditional assessment and management methods to sustain 
resources suggest new approaches are needed, such as ecosystem-based 
management. NOAA needs an expanded, integrated program of undersea 
exploration, strategic research, and technology development, which will 
result in:

        <bullet>  new discoveries, resources and promotion of our blue 
        planet

        <bullet>  knowledge and new perspectives needed for Ecosystem-
        Based Management

        <bullet>  Cutting-edge, innovative technical solutions for 
        science, engineering, and commercial applications.

    Together, these elements provide synergy, capacity and knowledge 
needed to meet the great ocean challenge.
    We maintain that this synergy must continue to include strong ties 
to regional partners who promote:

        <bullet>  Closer cooperation with local stakeholders, such as 
        fishery management councils and water quality agencies

        <bullet>  Increased participation in regional ocean science, 
        management, and education planning activities

        <bullet>  Enhanced scientific and operational capacity through 
        extramural partners in other federal programs, states, 
        academia, and industry

        <bullet>  Involvement of a broader community of scientists, 
        managers, educators, and students in NOAA's mission

        <bullet>  Better outreach through access and proximity to the 
        public, and

        <bullet>  Dedicated support for ecosystem approach to 
        management through coordinated team of NOAA, academic and 
        industry partners.

    Lastly, at a time when support for the oceans is most threatened, 
we need to increase efforts to reveal the importance of this work to 
the world and what will be lost to future generations. Ocean education 
and literacy breeds public support. These two programs together have 
already demonstrated their ability to reach students and public groups 
across the globe to convey the need and excitement of ocean exploration 
and research. On-going ``K through gray'' activities include:

        <bullet>  Virtual ocean programs that bring the sea into 
        classrooms and living rooms through tele-presence and live 
        events

        <bullet>  Interactive, at-sea learning that enhances ocean 
        literacy, enriches science education, and promotes 
        environmental stewardship

        <bullet>  Innovative ocean observation programs that promote 
        development of science and math skills, and problem-solving 
        approaches to learning, and

        <bullet>  Informal science center partnerships that expose 
        millions of visitors each year to the oceans through exhibits 
        and hands-on activities.

    Mr. Chairman, we endorse this legislation wholeheartedly, with one 
recommendation. We believe that the funding levels in the bill for the 
undersea research program are too small to accomplish the many tasks it 
will be conducting in the future. The costs of developing new 
technologies to explore and study the oceans are high and we recommend 
a fifty percent increase in the authorizing numbers in Title II of H.R. 
3835.
    We appreciate your attention to our remarks and the opportunity to 
submit testimony on behalf of this most important legislation.
    Thank you.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
